<html>
<title> - LOCAL AND PRIVATE SECTOR INITIATIVES TO COMBAT INTERNATIONAL HUMAN TRAFFICKING</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





  LOCAL AND PRIVATE SECTOR INITIATIVES TO COMBAT INTERNATIONAL HUMAN 
                              TRAFFICKING

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 7, 2013

                               __________

                           Serial No. 113-19

                               __________

        Printed for the use of the Committee on Foreign Affairs




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

80-798 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director
               Jason Steinbaum, Democratic Staff Director












                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Don Knabe, supervisor, Fourth District, Los Angeles County 
  Board of Supervisors...........................................     7
Mr. Bradley Myles, executive director and chief executive 
  officer, Polaris Project.......................................    16
Shawn MacDonald, Ph.D., director of programs and research, Verite    25

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Don Knabe: Prepared statement................................     9
Mr. Bradley Myles: Prepared statement............................    18
Shawn MacDonald, Ph.D.: Prepared statement.......................    27

                                APPENDIX

Hearing notice...................................................    64
Hearing minutes..................................................    65
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    67

 
                  LOCAL AND PRIVATE SECTOR INITIATIVES
                     TO COMBAT INTERNATIONAL HUMAN
                              TRAFFICKING

                              ----------                              


                          TUESDAY, MAY 7, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:08 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This focus of this committee hearing is on 
local and private sector initiatives to combat international 
human trafficking in persons. If we think about it, one of the 
big questions of civilization is how we treat those who are 
most defenseless in our midst, and the responsibility that we 
all have in a society in order to try to come to the aid of 
those who are most exploited. And in terms of trafficking in 
persons, this is one of the most grievous offenses against 
human dignity. It impacts almost every country on this planet. 
It disproportionately victimizes girls, children.
    Experts estimate that, in terms of all forms of 
trafficking, there are 20 million people worldwide subjected to 
forced labor, a broad designation that covers everything from 
debt bondage to the forced conscription of child soldiers, to 
the commercial exploitation of millions of women and children 
trapped in lives of sexual servitude. But even these jarring 
statistics can obscure the despair at the heart of these 
crimes. The harm of trafficking may be more clearly seen in the 
eyes of an abused 12-year-old girl who is being robbed of her 
freedom, robbed of her youth and of her hope.
    My chief of staff, Amy Porter, has worked with young girls 
in India and in Cambodia, girls rescued from brothels and other 
deplorable situations whose ages ranged from 16 years of age 
down to 3.
    As we will hear today, these are not just faraway problems 
affecting the developing world. More than 17,000 people are 
trafficked into the United States every year, and there is an 
estimate of 100,000 American citizen children who are victims 
within the United States of trafficking.
    And just this week, the media has reported a Federal 
investigation into the alleged trafficking of two Filipino 
victims by a Saudi diplomat here in the DC area.
    This committee has played a role in putting human 
trafficking onto the radar screen for governments everywhere. 
In the past 13 years, international peer pressure and the 
potential threat of U.S. sanctions have pushed many nations to 
try to avoid the stain of a ``tier III'' designation in the 
State Department's annual report, and more than 130 countries 
have enacted anti-trafficking laws. But, of course, passing a 
law is not the same thing as enforcing that law. And not only 
does much work remain to be done to prosecute traffickers and 
protect victims everywhere, but a lot of work remains to be 
done on this committee.
    Much of the focus on trafficking has been brought by our 
Subcommittee Chairman Smith over the years. He is the author of 
the original Trafficking Victims Protection Act, the TVPA. And 
he held an excellent hearing 2 weeks ago on the State 
Department's country tier rankings. I fully expect the 
committee to return to those issues again in June, when the 
administration releases its annual TIP Report.
    But the struggle that I and Subcommittee Chairman Chris 
Smith have had over the last few years is with the State 
Department and their lack of willingness, their lack of honesty 
in naming names and in putting on the tier III list these 
countries that are involved.
    And in many cases, as in the case of Cambodia, this 
corruption goes right up to the top. And it is far past time, 
far past time for this government to be bringing all the 
pressure we need to bring to bear on regimes around the world 
that turn a blind eye or, as is the case of Cambodia, law 
enforcement agencies that are actually culpable in these 
abuses.
    The focus today is on some of the promising local and 
private sector initiatives that are connecting and empowering 
communities around the world in the fight against human 
trafficking.
    As is the case in so many endeavors, local communities, 
individual citizens, private businesses are often the engine of 
real change. And in that regard, I am pleased to welcome as one 
of our witnesses Los Angeles County Supervisor Don Knabe, whose 
is here with his wife, Julie. Their commitment has aided 
victims and raised awareness among our shared constituents and 
throughout the State of California.
    The committee looks forward to learning more today about 
how these innovative partnerships are developing new tools to 
defeat traffickers, to rescue their victims, to fight the 
spread of modern-day slavery around the globe.
    And I now recognize my good friend the ranking member for 
his remarks before turning briefly to the chairman and ranking 
member of our Human Rights Subcommittee for 2-minute opening 
statements. Mr. Engel?
    Mr. Engel. Thank you very much, Mr. Chairman, for holding 
this hearing. I know that California has been particularly 
progressive on measures to stop human trafficking.
    Supervisor Knabe, Mr. Myles, and Dr. MacDonald, welcome to 
the Foreign Affairs Committee. I look forward to hearing your 
testimony on creating successful local and private sector 
initiatives in the fight against human trafficking and modern-
day slavery.
    The International Labor Organization estimates that there 
are 21 million victims of trafficking worldwide, including 5\1/
2\ million children. The Department of Justice and the FBI 
reported over 1,200 human trafficking investigations in 2011 in 
the United States. In reality, it is likely that there are many 
more victims of trafficking since it is a widely unreported 
crime.
    Unfortunately, trafficking is a thriving industry found in 
all regions of the world. It generates more than $30 billion in 
profits every year from the sale of human beings and the 
estimated proceeds from the activities or goods produced by its 
victims.
    Human trafficking is a crime that requires the coordinated 
action of governments to stop and prosecute, but the private 
sector also has a key role to play by engaging with NGOs and 
governments to combat trafficking. Members of the private 
sector admit a difficult truth, that human trafficking in their 
supply chains, factories, farms, plantations, and restaurants 
is a serious problem. Only by working hand in hand with private 
sector partners can we put an end to modern-day slavery.
    Since 2001, I have been deeply involved in a closely 
related issue: Ending child labor in the global cocoa industry. 
After learning of horrendous abuses involving children being 
sold into slavery in the cocoa fields of Cote d'Ivoire and 
Ghana, Senator Harkin and I formulated the Harkin-Engel 
protocol to put an end to these despicable practices. This 
approach was the first of its kind. Over the past 12 years, we 
have worked with the Governments of Cote d'Ivoire, Ghana, and 
the global chocolate industry to formalize engagements with the 
private sector.
    The private sector is supportive of these efforts with $10 
million matched by $10 million in U.S. Government funds. The 
protocol supports active civic engagement of local communities 
to fight exploitation. We must do even more to promote greater 
certification and verification efforts across a wide range of 
industries to ensure that the products we consume at home are 
not tainted by trafficked labor.
    Working in human trafficking is a bipartisan cause. I am 
pleased that the Trafficking Victims Protection Act was 
reauthorized in February of this year along with the Violence 
Against Women Act, which included some important trafficking 
provisions. I also want to recognize President Obama's 
Executive Order strengthening protections against trafficking 
in Federal contracts, which he issued last year.
    The original Trafficking Victims Protection Act, championed 
by our colleague Chris Smith, established a plan to eliminate 
the scourge of human trafficking. It included the three P's: 
Prevention, Protection, and Prosecution. And, under the 
leadership of Secretary Hillary Clinton, a fourth P was 
established, partnerships with governments and organizations, 
the subjects of today's hearings.
    I have been impressed by Supervisor Knabe's efforts to 
raise awareness of trafficking in the Los Angeles area, 
Polaris' partnership with Google to create a global anti-
trafficking hotline and Verite's work on ensuring that 
companies adhere to international labor standards down their 
supply chain.
    I am interested in hearing more from today's witnesses on 
how to bring more businesses to the table to fight human 
trafficking and learn how the U.S. can lead by example for the 
rest of the world.
    One last point. I would like to commend the work of the 
State Department's Office to Monitor and Combat Trafficking in 
Persons, or J/TIP. Their annual reports in human trafficking 
worldwide is key in making sure both Congress and the public 
understand the extent of the problem and the progress being 
made toward its elimination. I look forward to this year's 
report.
    Mr. Chairman, I want to thank you again for your leadership 
and for holding this important hearing. And I look forward to 
the testimony.
    Chairman Royce. Thank you, Mr. Engel.
    We now go to Mr. Smith of New Jersey.
    Mr. Smith. Thank you very much, Mr. Chairman. I, too, want 
to thank you for your leadership and for holding this 
extraordinarily important hearing on best practices by the 
local and private sectors. And I want to make the point that it 
is a fact that innovation and best practices that are developed 
in the United States are being exported to fight human 
trafficking abroad.
    The three P's of Prevention, Protection, and Prosecution 
have become the standards by which we evaluate every country's 
anti-trafficking efforts and the hammer with which we have 
chipped away at slavery around the world for more than a 
decade.
    Predictably, the traffickers have evolved and adapted along 
the way, but so have we, with the invaluable help of local 
governments, nongovernmental organizations, and private 
enterprise thinking carefully and creatively about what they 
can offer to this important fight.
    NGOs like Airline Ambassadors and Innocents at Risk 
pioneered training for flight attendants and other airline 
personnel to ensure that flight crews would know how to 
recognize potential victims of human trafficking and who to 
call for help.
    The Department of Homeland Security has subsequently 
developed this idea into a full-fledged training known as Blue 
Lightning for use by commercial airlines. Even more, what began 
as an NGO training for airline personnel has now developed into 
training for train conductors, bus station attendants, and 
other transportation professionals, as well as the hotel 
industry, who may have the opportunity to identify and help 
rescue trafficking victims.
    In my capacity as special representative to the 
Organization for Security and Cooperation in Europe's 
Parliamentary Assembly, I have had the privilege of sharing the 
fine work of Airline Ambassadors and the broader transportation 
implications with 57 participating states of the OSCE.
    In like manner, it is my deepest hope, and I raise it at 
every bilateral meeting that I have, that African countries, 
Asian countries, and all nations will embrace situational 
awareness strategies that empower the training to report 
suspicious activity to stop this egregious exploitation.
    The Airline Ambassadors initiative has already resulted in 
the rescue of more than 100 trafficking victims and will soon 
rescue thousands more. Collaboratively, we are narrowing the 
space in which traffickers can operate. Every best practice and 
innovation we can share with the world helps to tip the scale a 
little more in the direction of freedom for the enslaved and 
then prison for the slave masters.
    You pointed out the importance of honesty, Mr. Chairman. I 
am concerned. And that is why I had the hearing just a couple 
of weeks ago that now that those countries that are on tier II 
watch lists that have horrific trafficking records vis-a-vis 
the minimum standards.
    Now, unfortunately, with the new reauthorization, there is 
a tipping of the balance toward the regional bureaus and a 
power shift away from the TIP office; there is always a fight 
inside the State Department. I am deeply concerned about those 
like China; Vietnam, and I know you have been a tenacious 
champion in fighting for human rights in Vietnam, and other 
countries will not go down to tier III, where they belong 
because the regional bureaus will have a disproportionate say 
as to what happens.
    We plan on holding hearings when the TIP Report comes out. 
We have given them forewarning with the hearing we have just 
had of these deep concerns. Just be honest, as you pointed out 
so well, Mr. Chairman. Call it the way it really is and not 
have that TIP Report in some way reflect a fiction.
    I yield back.
    Chairman Royce. Thank you, Mr. Smith. We do put them on 
notice.
    Karen Bass from Los Angeles, California, do you have an 
opening statement you would like to make?
    Ms. Bass. I do. I do. Thank you very much, Mr. Chair, for 
holding this meeting, and ranking member.
    I was fortunate enough to assist with the passage of Supply 
Chain Act during my time in the California Assembly. So I am 
pleased to see the committee take up the issue at this time.
    I would also like to thank our witnesses for your testimony 
and recognize you for the inspiring work that you do every day 
to combat the exploitation of individuals domestically and 
internally. Supervisor Knabe and Child Welfare Director Philip 
Browning, I also want to personally commend you for launching 
the L.A. County Anti-Child Sex Trafficking Campaign and for 
your continued advocacy on behalf of foster youth. There is 
also the issue of sexual exploitation of women, men, and often 
children.
    This issue is particularly important to me because of the 
impact on my hometown of Los Angeles and the prevalence of 
foster youth being trafficked for this purpose. In 2012, the 
L.A. County reported that an astonishing 59 percent of youth 
identified as victims of sex trafficking were part of the 
foster care system. Forced to bounce in and out of homes 
without basic physical or emotional needs fulfilled, these 
youth are often exploited by pimps and are conditioned to 
believe that their value is based on how much income they can 
generate. It is absolutely unacceptable to allow the continued 
victimization and abuse of a population that we have vowed to 
care for and protect.
    That is why I, along with my colleague Tom Marino, have 
reintroduced the Child Welfare Response to Trafficking Act. 
This bill will provide child welfare employees with appropriate 
tools to identify, document, educate, and counsel child 
trafficking victims and at-risk youth and require these 
agencies to report the numbers of trafficking victims in foster 
care and their plans to combat trafficking to the Federal 
Government.
    But congressional action is not enough. We must undertake a 
whole of society approach to ensure the safety and dignity of 
trafficking victims. There are many private organizations that 
are currently addressing this issue in many creative ways. 
Humanity United, a foundation devoted to advancing human 
freedom across the globe, has supported anti-trafficking 
initiatives by the Federal Government and the California 
Attorney General's Office. The University of Southern 
California's Annenberg School of Communication in Journalism 
has been working closely with the FBI and other Federal 
agencies to study technology's role in both facilitating and 
fighting human trafficking. Many hotel chains are now training 
their employees to identify signs of sex trafficking. We really 
appreciate that.
    I look forward to hearing what other strategies are in 
place to address this problem in gaining a better understanding 
of where the gaps exist in our efforts to end human trafficking 
locally as well as internationally.
    Thank you. I yield back my time.
    Chairman Royce. Thank you, Congresswoman Bass.
    Los Angeles County Supervisor Don Knabe, who is the first 
of our witnesses with us today, has been a tireless crusader in 
Los Angeles County ever since he became aware of the heinous 
child sex trafficking problems in our own backyard. And those 
challenges represent the victimization of girls as young as 12. 
He has pushed for multidisciplinary outreach and rehabilitation 
services for sexually trafficked females in the juvenile 
justice system. As you heard, he spearheaded several different 
initiatives.
    But a year ago in conjunction with law enforcement and 
transit officials and private sector media companies, he led an 
anti-sex trafficking campaign to raise public awareness and 
engagement by placing bilingual signs and billboards in high-
traffic public places in the community, such as on the buses, 
on transit. And that program has been further extended this 
fall.
    He has also been a strong public advocate for the 
Californians Against Sexual Exploitation Act, an act which is 
now law in the State of California, that strengthens penalties 
against traffickers and extends victims' protections.
    We also have with us Mr. Bradley Myles, chief executive 
officer of the Polaris Project, a leading organization in the 
fight against human trafficking and modern-day slavery. Mr. 
Myles helped launch the National Human Trafficking Hotline to 
identify and assist survivors of trafficking. Previously he 
worked to build the Human Trafficking Task Force here in 
Washington, DC.
    We also have with us Dr. Shawn MacDonald. Dr. MacDonald is 
the director of programs and research at Verite, a group that 
works with private companies to make their supply chains free 
of human trafficking victims. Prior to his current position, he 
worked as the director of accreditation at the Fair Labor 
Association.
    And, without objection, the witnesses' full prepared 
statements will be made part of the record. Members may have 5 
days to submit statements, questions, and extraneous material 
for the record. And we would ask that everybody summarize their 
opening statements within 5 minutes. We will begin with 
Supervisor Knabe.
    Mr. Knabe. Thank you.

 STATEMENT OF MR. DON KNABE, SUPERVISOR, FOURTH DISTRICT, LOS 
              ANGELES COUNTY BOARD OF SUPERVISORS

    Mr. Knabe. Mr. Chairman, members of the committee, thank 
you for your leadership in helping to raise awareness of this 
horrific issue of child sex trafficking around the globe.
    I appreciate the opportunity to be with you today. And, Mr. 
Chairman, as you said, given our time frame, I am going to 
summarize the written statement which I have submitted to the 
committee.
    As some of you may know, Los Angeles County is the largest 
county in the Nation, with over 10 million residents. And in my 
district alone, I represent over 2 million people. I have been 
honored to serve the county for nearly 20 years. But never in 
my time in office have I heard an issue as shocking and 
disturbing as what is happening to young girls right here in 
the streets of America.
    About 18 months ago, staff from our Probation Department 
came to me to discuss what they were seeing as an escalating 
problem in our juvenile justice system: Young girls being 
arrested for prostitution. While society often has 
characterized it as a choice, the average age of entry we 
discovered into prostitution is 12 to 13.
    Shortly after our initial meeting, at a fundraising event 
for survivor programs, one of our probation officers was texted 
that a 10-year-old, a 10-year-old, had just been taken into 
custody for prostitution at 6 o'clock p.m. on a Tuesday night. 
No 10-year-old little girl is choosing that life.
    Today I would like to just briefly discuss some of our 
efforts to combat child sex trafficking and the intersection of 
international and local efforts to safeguard our most 
vulnerable young people.
    Los Angeles County, unfortunately, is recognized as one of 
the hubs for sex trafficking in the Nation. With our two major 
ports, airport, proximity to the border, we are particularly 
vulnerable, though we are not alone. Big cities, small towns 
across this Nation are waking up to the horror that young girls 
are being trafficked across city limits, state lines, and 
country borders.
    Despite the varying locations, however, the story of these 
girls is much the same. Children who fall victim to predatory 
adults are often in the streets because of abuse or neglect at 
home. The trafficker, the scum bag pimp, as they are often 
called, in the United States promises love, family, a job, and 
security.
    In Los Angeles, our infamous gangs, many of which have 
international connections, are now engaging in child sex 
trafficking because it is much safer for them to sell a girl 
than guns or drugs. And, frankly, it is more profitable. Once 
put to work in the streets, these young girls can be given a 
quota of $500 or more a night, which could lead to 8 or 10 or 
more sexual acts, which she must meet or, unfortunately, risk 
brutal violence.
    Indeed, these threats are very legitimate. One survivor 
told us of an incident in which several girls were taken to the 
desert and forced to watch as one was burned to death for 
attempting to run away.
    As we see patterns in child sex trafficking across 
geography, we also must develop models for protection and 
prevention by working together across all levels of government 
and with NGOs both here as well as internationally.
    For us in Los Angeles County, it started with building 
awareness. As a member of the board, we also sit on the MTA 
board. Last year, we posted a campaign in English and Spanish 
about sexually trafficked youth on all 3,000 Metrobuses, 
railcars, trains, and at stations, and also on our Metrolink 
system, which crosses county borders, into places where we 
believe young people are most vulnerable.
    I was pleased that the private sector voluntarily joined us 
in our efforts. Clear Channel and Lamar Advertising donated 
over 100 billboards and 50 digital displays to show 
advertisements across Los Angeles County.
    We have created a video called ``Manipulated'' to tell the 
story of child sex trafficking, which has had over 40,000 hits 
and been viewed in 171 countries.
    Raising awareness, however, is just not about the public. 
Through a grant through this gracious committee here, we have 
trained over 1,600 people, like judges, attorneys, county staff 
who regularly come in contact with victims but may not realize 
it.
    Through another Federal grant, we have established a 
Collaborative Court to focus specifically on the victims of 
child sex trafficking. Through this court, which is dedicated 
to the victims only, we are able to provide the girls with 
wrap-around victim-centered response teams to help them with 
their physical as well as their mental health issues as well as 
housing, education, and training services.
    Last summer, Los Angeles County hosted the first national 
Empowerment Conference for the victims, at-risk girls, to help 
them overcome their challenges; heal their wounds; and, most 
importantly, look toward the future. In fact, five of these 
young women, survivors, will be here in DC this week to 
advocate on behalf of all victims of human trafficking. And, of 
course, helping the victims is critical, but we also must find 
ways to prevent this atrocity altogether.
    We are beginning to build partnerships with local school 
districts. We have a program called My Life, My Choice to 
select middle schools where we know exploitation is the 
highest.
    It has been 18 months since we started our journey in Los 
Angeles County. I am proud of what our county staff has 
accomplished and pleased that we have had support from our 
Federal partners here as well as the private sector.
    The voices of these abused children often remain silent. In 
the past, young girls arrested for prostitution were judged by 
society exactly as their pimps predicted.
    The pimp life, outrageously, has been celebrated. Through 
education, survivor, and prevention programs and legislation, 
we are going to reverse this injustice. Young girls, those that 
we are responsible to protect, as you all know, no matter where 
they are from or where they have been trafficked, they are true 
victims, but that we are here to support to help them realize 
that their lives are valuable and that they are worthy of the 
dreams they once imagined. We must do everything we can to get 
these girls off that track and on a path to a better life ahead 
and together say no more, not in our streets, not to our young 
girls.
    Thank you for the opportunity to speak with you today.
    [The prepared statement of Mr. Knabe follows:]
    


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. Thank you, Mr. Knabe.
    Mr. Myles? Mr. Myles, just hit that button there.
    Mr. Myles. There we go.
    Chairman Royce. There you go.
    Mr. Myles. I will start again.

 STATEMENT OF MR. BRADLEY MYLES, EXECUTIVE DIRECTOR AND CHIEF 
               EXECUTIVE OFFICER, POLARIS PROJECT

    Mr. Myles. Thank you for convening this hearing today and 
inviting me to speak. My name is Bradley Myles. I am the CEO of 
Polaris Project. We are a nonprofit organization dedicated to 
combating human trafficking and modern slavery.
    In my testimony today, I would like to focus on one area of 
a comprehensive approach to fighting trafficking, which is 
anti-trafficking hotlines and the powerful role that hotlines 
can play as part of an effective anti-trafficking response. And 
let's first start with a point about victim identification.
    You all mentioned the statistic of 21 million. Well, that 
same year the Trafficking in Persons report estimated that only 
around 41,000 trafficking victims were identified globally. So 
based on those 2 estimates, 21 million and 41,000, our 
collective victim identification rates are not yet even at 1 
percent of the total people in modern slavery.
    And one of the most common problems is that victims don't 
know where to go for help. They don't know that there are 
numbers that they can call for help.
    So Polaris Project has piloted local anti-trafficking 
hotlines in multiple U.S. cities. And for the past 5 years, we 
have operated the country's 24/7 central human trafficking 
hotline, the National Human Trafficking Resource Center. The 
number is 1-888-373-7888. This hotline is funded, in part, by 
the U.S. Department of Health and Human Services.
    We have also recently launched a national texting service, 
which is BeFree, 233733, in partnership with THORN, Twilio, 
Salesforce.com, in an effort to reach more victims.
    Here are some of the highlights of the work that we have 
seen on the U.S. national hotline. First, we have fielded over 
75,000 calls. They are coming in at a rate of about 80 a day. 
Thus far, we have learned about 9,000 survivors of trafficking, 
and we have received calls directly from 3,500 survivors of 
trafficking. So the survivors are calling the hotline directly. 
We reported over 3,200 cases of trafficking to law enforcement 
authorities.
    So this brings me to a point about hotlines and the 
importance of data. Not only can hotlines play a role in victim 
identification and connecting survivors to services, hotlines 
can also play a role as robust sources of data to understand 
the crime of trafficking. By adding a data analysis component, 
hotlines can identify the newest trends in patterns and then 
communicate those to relevant actors in the field to learn 
about how to fight this crime.
    So, moving forward, I would like to share with you two 
initiatives that we are working on, both related to anti-
trafficking hotlines globally. The first is in 2012, Polaris 
Project launched our new global programming with funding, in 
part, from the U.S. Department of State Office to Monitor and 
Combat Trafficking in Persons. And through this recent TIP 
office grant, what we are going to do is we are going to map 
and identify every human trafficking hotline globally around 
the world. We are going to connect with those hotlines to learn 
more about them, and we are going to offer training and 
technical assistance to support the creation and expansion of 
other human trafficking hotlines in target countries.
    In the early months of this program, we have already 
identified 70 anti-trafficking hotlines around the world that 
we are beginning to be in touch with. And some of the initial 
lessons that we have learned are that hotlines around the world 
are essentially hidden gems. They are under-resourced. They are 
under-publicized. They are uncoordinated. And they are not 
fully maximizing their potential to identify more victims to 
connect them with services and to understand how to fight this 
crime. So this brings me to the second initiative.
    In April 2013, we joined with Liberty Asia and La Strada 
International to form a new network of anti-trafficking 
hotlines across the U.S., Europe, and Asia. This initiative, 
entitled the Global Human Trafficking Hotline Network, recently 
received a global impact award from Google and engineering 
support from Google Ideas, Palantir Technologies, and 
Salesforce.com. And through this network, we are developing a 
more coordinated global response for victims of this 
transnational crime. And one of our goals is hotline coverage 
for every part of the world.
    So let me end with these final thoughts. We need to 
modernize the concept of a hotline. For us, next generation 
hotlines need to communicate, not just through the phone but 
through texting, through email, through online, through social 
media. Hotline can also build better cloud-based call data 
tracking systems, and they could build better data analysis 
systems. These are some of the new standards that we could aim 
for.
    So imagine what our global anti-trafficking effort could 
feel like if there were a well-publicized, well-resourced 
hotline operating in every country or every region of the 
world. And through the GHTHN network that we are building these 
hotlines, we are sharing data. They were leveraging new 
technologies. They are partnering with the private sector and 
coordinating more with each other.
    And, combined with the spread of mobile devices around the 
world, this new global safety net will make it easier for the 
millions of people in slavery to reach out to the hotline and 
access help. To make all of this come to life, hotlines rely on 
public awareness. And it all starts with public awareness; with 
training; as Congressman Smith said, situational awareness 
strategies; transport systems; hotels, as Congresswoman Bass 
mentioned. And if we could take the situational awareness 
strategies, channel them into a well network infrastructure of 
hotlines, channel those calls into referral relationships to 
law enforcement and social service providers, and add to that 
data analysis to understand the crime, that is a powerful 
recipe for fighting trafficking in any country. So these are 
some of the initiatives that Polaris is working on that we 
believe will make a major impact in the global fight against 
trafficking.
    Thank you for this opportunity to speak before you today. I 
will look forward to taking your questions. Thank you.
    [The prepared statement of Mr. Myles follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. Dr. MacDonald, go ahead.

 STATEMENT OF SHAWN MACDONALD, PH.D., DIRECTOR OF PROGRAMS AND 
                        RESEARCH, VERITE

    Mr. MacDonald. Chairman Royce and Ranking Member Engel and 
other distinguished members of the committee, thank you very 
much for inviting me to testify today. My name is Shawn 
MacDonald. I am director of programs and research at Verite, 
which is an American NGO that works globally to help companies 
improve supply chain labor conditions. The assessment, 
training, and consulting work that we do benefit workers and 
companies alike.
    For more than 15 years, we have been documenting the 
mechanisms of labor trafficking. And, more importantly, we have 
been crafting solutions that are scalable and adoptable by any 
company.
    We believe that companies must base their anti-trafficking 
efforts squarely on responsible recruitment practices, 
particularly accountability for how their supplier factories 
and farms hire workers. Almost all products we buy, clothes, 
computers, furniture, food, involve a supply chain that employs 
migrant workers. And, to be clear, when we are talking about 
labor trafficking, we are mostly talking about debt bondage of 
migrant workers.
    Workers go to great lengths to secure a job and in the 
process often become indebted to labor brokers, so indebted 
that it can take years for them to be free of debt and 
intimidation. The actions of these middle men, the traps and 
tricks they use, the fees they charge, the ways they coerce and 
intimidate workers, these are the mechanisms of labor 
trafficking. And unless a company gains control of the 
outsourcing of recruitment to such people, they are part of the 
problem and not part of the solution.
    No worker should have to pay with their liberty simply to 
secure a job building a hotel in Dubai or harvesting palm oil 
in Asia or picking berries in New England.
    So I am glad to have the opportunity to let you know about 
the ways we have been working with real companies to create 
blueprints to assure fairness in how workers enter their supply 
chains. These are business-focused market-savvy approaches to 
complement public policies.
    First I want to tell you about Verite's Fair Hiring 
Toolkit, which provides companies with implementation 
guidelines, program templates, management procedures, and the 
like. It is the pathway for any company that wants to ensure 
trafficking victims are not making their products.
    I want to tell you about one company Verite worked with to 
do just that whose actions are already part of the public 
record. So I am not breaking business confidentiality. You all 
know Apple and its record for innovation, but you may not know 
that Apple is also a pioneer in reengineering its supply chain 
labor recruitment systems so workers are not trafficked. Some 
of their supplier factories were outsourcing recruitment to 
brokers. They charge workers sometimes thousands of dollars for 
that job.
    We worked with Apple to create an approach that requires 
their supplier factories to reimburse fees to workers who paid 
for their job. Now the supplier factory has a very real 
incentive to either hire directly or to outsource recruitment 
only to a reputable labor recruiter. This approach is working. 
Brokers and factories have reimbursed over $13 million to those 
cheated workers. Factories are changing practices to avoid that 
cost. No company is perfect, but we think others should pay 
close attention to Apple's approach.
    That example leads me to another Verite initiative. Last 
year we launched a Framework for Ethical Recruitment that is 
targeted to the global labor broker industry itself. Our 
framework shows exactly how a recruitment firm can meet legal 
and ethical standards and provides a practical way to validate 
which firms meet the standard and which do not.
    Our framework can also help Federal contractors meet 
President Obama's executive order announced last September, 
which requires Federal contractors to have anti-trafficking 
safeguards in place.
    As recruitment firms become independently verified to our 
standards, they are more likely to be hired by Federal 
contractors and companies, like Apple suppliers, who have a 
tangible business prerogative to choose carefully whom they are 
hiring to find their labor. It will also help companies comply 
with California's Transparency in Supply Chains Act that 
Representative Bass alluded to, which requires companies to 
disclose their anti-trafficking policies. And it helps 
companies protect themselves in the face of tougher state laws 
that we are seeing being implemented across the country that 
are holding employers much more accountable for labor 
trafficking.
    And, finally, we find many American companies are connected 
to trafficking deeper in their supply chains from the commodity 
level on up: The cotton that becomes our clothes, the metals 
that are mined for our electronics.
    As you know from Representative Engel, many years working 
with the cocoa sector to tackle child and forced labor, this is 
not easy. The chain is possible when companies, NGOs, and 
government work together to incentivize better business 
practice.
    In conclusion, we are working to harness American business 
creativity, American business enterprise to rework supply chain 
relationships so that nobody is ensnared in debt bondage. The 
attention from this committee sends a powerful message to the 
private sector to move from rhetoric to concrete action on this 
front.
    Mr. Chairman, we stand ready to work with you and the 
entire committee to help the private sector innovate to end 
human trafficking. Thank you for the opportunity to testify.
    [The prepared statement of Mr. MacDonald follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                              ----------                              

    Chairman Royce. Mr. MacDonald, thank you.
    One of the issues that was discussed here is this full 
spectrum approach. For example, in L.A. County, the focus on 
what you do in order to create the public awareness so that you 
actually identify the victim and then getting law enforcement, 
getting the physician community involved in identifying and 
reporting, getting the training for law enforcement in terms of 
how to deal with those victims and then providing the resources 
to the victims that are in custody. And the last element, I 
guess, is the punishment that is directed toward those who are 
engaged in organizing this trafficking.
    In terms of that lesson, I would just ask each of you, how 
might we share those lessons with others, other communities, 
but also others overseas that have a similar interest but maybe 
not the lesson plan or the capability? How can that information 
be shared and empowered so that others in other countries begin 
to take action as well?
    Mr. Knabe. Well, to begin with, I think, you know, as the 
largest county in America, I believe it is our duty to be very 
involved in this particular program, particularly, as I 
mentioned in my testimony, about the ports and the airport and 
the borders.
    Earlier this year, we started with the National Association 
of Counties by hosting a Smart Justice Symposium. We can do a 
little bit at a time. And we had not only the county folks and 
our probation and Children and Family Services, but we had 
juvenile court officials. We had Federal Homeland Security 
representatives, as well as the FBI. It was a very successful 
program and a little bit--because people started to realize, 
even from some of the smaller counties around America, that 
they had these similar situations in their own backyard, but 
they were not able to identify it until we put it out there.
    So, I mean, there are building blocks that we can do as a 
county. Obviously having Federal partnerships would really 
embellish or enhance our opportunities to get the word out.
    Mr. Myles. I think what I would as well is that I think 
that in the anti-trafficking field, there are these very 
concrete nuggets of hope where things are successful and 
efforts are making impact. And we have documented that.
    And so what the field needs to do a better job of is 
pointing people toward these successful models and promising 
approaches, documenting those, and then leveraging the existing 
networks that have already been built through things like the 
National Association of Counties or different international 
coalitions that exist, business coalitions that exist. The 
channels for communication exist.
    What we need to do is we need to direct these documented 
successful strategies into those well-networked channels to 
begin spreading that information around the world through 
thought leadership. And I think we are beginning to do that 
with something like the Global Human Trafficking Hotline 
Network. We are going to share these hotline strategies with 
different hotlines around the world, but that same model can be 
applied to business coalitions, to coalitions within 
government. And using the existing channels, we don't need to 
rebuild coalitions. We just need to slot the information into 
the existing infrastructure and let it spread.
    Chairman Royce. Shawn?
    Mr. MacDonald. I would add that what we are finding with 
the private sector is that there is a great hunger for concrete 
examples of how companies are changing their policies and 
practices within their supply chain. And we are working to get 
that information out to other companies through trainings and 
webinars and things like that that enable them to learn from 
each other. And what is really exciting is that because so many 
companies, particularly the large American companies, large 
retailers, like the Wal-Marts, the Targets of the world, are 
taking these issues very seriously and are beginning to 
promulgate new standards and practices that are filtering out 
not just through their suppliers here in the United States but 
also globally.
    And businesses are finding ways to compete with one 
another. That is why in my remarks, I was alluding to market 
mechanisms that we hope will enable companies to compete on how 
well they are handling these programs.
    Chairman Royce. So information from one company here might 
be useful to businesses in other countries because of the way 
that they might key off of decisions made here, but then you 
also have the ability to get these international media 
companies involved and raise awareness, which is one of the 
things done in L.A. County.
    How else could you use international media to reach your 
goals there, Shawn? Well, I will ask Mr. Myles, too.
    Mr. MacDonald. We are finding the international media is 
very interested in this. You see major outlets, like CNN and 
The Guardian Media Group out of the U.K. focusing very clearly 
on what companies can do.
    Supervisor?
    Mr. Knabe. I mean, I think while the international media is 
extremely important to help us facilitate the knowledge base, 
what is happening right here in our own backyard, I think, like 
many of us think, that it always happens in Third World 
countries when it is right here in the United States of 
America, whether it is a small rural area or major metropolitan 
area. And that knowledge and getting the word out, just looking 
at our domestic media is extremely important.
    Chairman Royce. Thank you, Don.
    Mr. Myles. I think we need to saturate communities with 
awareness of what human trafficking is, how to spot it, and 
what to do when you think you have found it. And the 
international media, through the CNN Freedom Project, its new 
project launched by The Guardian, some of the reporting done by 
the BBC, can play a role in that saturation, but from my 
perspective, I want us to be careful not to put out media 
stories that don't have an action item associated with it.
    And if the person's action item is, ``I read that. Good to 
know. Not quite sure how to take action from here,'' that media 
story hasn't done its full role.
    Chairman Royce. Exactly.
    Mr. Myles. I think the full role is to put the action item 
at the end. So if you look at what Supervisor Knabe did in 
L.A., there is an action item at the end of those billboards. 
If you look at some of the media that has been reported in the 
U.S., they are reporting the national hotline of the BeFree 
texting at the end. International media can then channel to 
these hotlines around the world so there can be that action 
taken.
    Chairman Royce. And the Californians Against Sexual 
Exploitation Act would be an action item in California that was 
pushed that would certainly have a deterrent effect in terms of 
the new penalties on those involved in trafficking.
    We go now to Mr. Engel from New York.
    Mr. Engel. Thank you. Thank you, Mr. Chairman.
    Dr. MacDonald, let me ask you. You and Verite have focused 
on standard setting and corporate social responsibility from 
your testimony in combating human trafficking. How does Verite 
identify corporate partners to work to combat human 
trafficking?
    Mr. MacDonald. I think it is through a combination of 
mechanisms. Very often companies will come to us because they 
are aware of the efforts we have made to publicize our approach 
to these. And so very often they will ask us for assistance.
    But we will also spend a lot of time reaching out to 
business associations, speaking at conferences, working closely 
with multi-stakeholder initiatives that demonstrate which 
companies are interested in moving forward on this because the 
vast majority of companies are not doing anything on this 
issue, unfortunately, but you do see some pioneering companies 
that want to take a first step. We will reach out to them. They 
will reach out to us. We will help them craft approaches and 
encourage them to share those lessons with others.
    And it is that wide range of experiences that we use to 
create these open sources pools that we put out there for the 
public around the world to learn from to build better business 
practices.
    Mr. Engel. How does Verite design effective oversight 
programs for industries that may be reluctant to have outside 
groups examine their labor practices?
    Mr. MacDonald. Well, much of our work is done under 
business confidentiality rules. So we will do assessment for 
companies. We will design an approach for them. We will train 
their suppliers, that kind of thing. We will work with the 
workers who are affected by these policies. And over time, they 
will become more confident about sharing their lessons with 
others. And then, as I said, we try to share the broad lessons 
learned with other groups.
    But I think it is important to note that there is really a 
revolution in technology around this where it is not just a few 
companies that sometimes get ensnared in the media spotlight, 
but tweets and videos that workers around the world, even in 
very poor countries, are making about their conditions are 
getting information out there. So companies are increasingly 
being held accountable for their policies, as I mentioned, 
deeper in the supply chain.
    So it isn't the command and control situation anymore. It 
is very much a free-for-all of information and then more and 
more expectation that companies do something.
    Mr. Engel. Thank you.
    Through my work on the Engel Protocol, I have learned that 
the private-public partnerships are very important. I am 
wondering if anyone on the panel would tell me your experiences 
with forging these public-private partnerships in combating 
human trafficking. What obstacles did you encounter? How did 
you overcome them? And, based on your experiences, what key 
contributions can the private sector and the nonprofit sector 
offer to anti-trafficking campaigns that government entities 
cannot? Anyone? Mr. Supervisor?
    Mr. Knabe. Mr. Engel, as I mentioned in my testimony, we 
had a very good partnership with the private sector, with Clear 
Channel and Lamar Advertising coming forward on their own. It 
would be very difficult for us to find the ability to buy 100 
billboards throughout the county and 50 digital boards. The 
cost to that, it is just very, very significant. It has 
absolutely changed the playing field in Los Angeles County by 
raising awareness, that in conjunction with our Metro and 
Metrolink programs. Again, people are seeing that. And those 
are the kinds of programs. And they have had a very adamant 
effect on all our programs there in Los Angeles County. And it 
is a great partnership.
    So we have not had any obstacles. We continue to reach out 
to see if we can get more, but, in particular, that was an 
incredible find for us and an incredible partnership.
    Mr. Engel. Thank you.
    Mr. Myles?
    Mr. Myles. I would add to that I think Clear Channel has 
done amazing work through the partnership in L.A. County but 
also in other states around the country. They are publicizing 
different hotline numbers and billboards. So they are backing 
up that work and spreading it nationally.
    We have really seen over the past few years the way that 
partnerships with the private sector have rapidly increased the 
success of the anti-trafficking field. I think it has notably 
increased over the past 2 years how much the private sector has 
been involved in the field. Google has been helping us 
publicize the national hotline through revised search terms. 
Salesforce.com has been giving cloud-based computing solutions 
to nonprofits and to hotlines around the world. Palantir 
Technologies has donated their software data analysis system to 
Polaris to help us better understand the human trafficking data 
that we are seeing in the national hotline.
    We are also seeing companies like Sabre, the travel 
company, beginning to put this information out to travel agents 
around the world because they are in a position to identify it. 
Facebook is looking at how can they do a better job looking at 
prevention on the issue and also putting the hotline number out 
there, just dozens and dozens of private sector partnerships 
beginning to happen in the field. And it is really showing how 
the field can innovate and make sure that we are out innovating 
the traffickers in bringing the strengths together between 
nonprofits, government, and private sector.
    Mr. Engel. Thank you.
    Dr. MacDonald?
    Mr. MacDonald. I would just add that what we are seeing is 
that NGOs and companies are becoming much more comfortable 
working with one another. The NGOs provide real legitimacy to 
the efforts of companies and help them push beyond their 
comfort zone and help them to become more comfortable with 
greater transparency around these efforts and also help them 
cooperate with their competitors within the business sector.
    And I think this experimentation that is happening between 
the private sector and NGOs is undergirded by new policy 
approaches that we have spoken of here today, not just the 
overall architecture from the TVPA but also the California 
Transparency Supply Chain Act, the executive order that we 
mentioned for Federal contractors. So that provides really 
strong impetus to public policy for businesses to step up to 
the plate with NGOs helping them. And we are seeing them in 
other countries, too, because this great surge of interest and 
outrage over human trafficking means as well as the TIP Report, 
for all of its flaws, really put focus on government agencies 
overseas to change the way that they are partnering with the 
private sector, the way that they are regulating labor brokers 
and things like that.
    So there is a fervent plethora of activity happening that 
we think is really exciting.
    Mr. Knabe. Just the fact it is just not a comfortable 
subject. And I think the awareness from the private sector that 
they are gaining something from that in their ability to work 
through the system without being punished or something like 
that and their willingness to come forward because this is just 
not a comfortable subject for everyone to deal with. And, 
again, thank you and all of you for your leadership in this 
issue.
    Mr. Engel. Well, thank you. Thank you, Mr. Chairman.
    Chairman Royce. Mr. Smith?
    Mr. Smith. Thank you very much, Mr. Chairman.
    Let me ask Mr. MacDonald, if I could, first and foremost. 
Last July I held a hearing on worker rights in China. And we 
heard from a man named Li Qiang, who is the executive director 
of China Labor Watch, who was an activist inside of China. And 
for more than a decade has headed up this organization.
    He spoke about some reports they had just done on Apple and 
on other companies. He had two major problems that seemed to be 
Achilles' heels when it comes to the exploitation of that labor 
force and, of course, makes it harder to determine supply 
chains and whether or not products were being made by gulag 
labor or by exploited labor.
    He pointed out that dispatched workers are a huge issue, 
including with Apple; third party agreements that kind of evade 
a type of scrutiny that would lead to an accountability on the 
part of Apple. And then he spent a great deal of time talking 
about the auditors and said in 2010, one company that was doing 
auditing had dismissed two-thirds, about 300 of their auditors 
because they had been bribed. And there seems to be a great 
incentive to bribe auditors to give a good mark to a company. 
And then they come to their shareholders and say, ``Look, we 
are doing great'' when it is nothing but a fraud. And I wonder 
if you might speak to that because that seems to be an area of 
some neglect.
    Secondly, if I could ask Mr. Myles, with regards to the 
hotline, what is the interface and the response time with law 
enforcement? For example, I am a bus driver. I see something 
going on on my bus that looks very, very suspicious. I call the 
hotline. What happens? Do the police come to the offloading?
    You know, is there that kind of--you know, with the 
airlines, we know the flight attendants tell the pilot. Pilots 
call to the airport, the destination. And as they offload, if 
there is a suspicious activity going on, ICE or some law 
enforcement would be there to greet and to separate and to 
determine whether or not a trafficking situation has been in 
progress. Response time for law enforcement when hotel 
employees and others call, what has been your experience with 
regards to that?
    And then to Mr. Knabe, thank you for your leadership and 
for your being here today, coming out to testify. You mentioned 
in your testimony that child prostitution is a misdemeanor in 
L.A. and that pimps are often waiting outside the courthouse 
door to drag the child back into slavery. And I am wondering 
what law enforcement is doing to mitigate that.
    You know, it seems to me that we need to declare war on 
these pimps and, I mean, put them away and put them away for 
life. But if they are waiting outside the courtroom, it would 
seem to me that it is not a heavy lift to determine what is 
going on there and to seek to go after those pimps.
    What are your thoughts on that?
    Mr. Knabe. Well, first of all, as I mentioned in the 
testimony, the collaborative courtroom has been an incredible 
success story. Instead of just treating these young girls 
coming in, getting slapped in the wrist, you know, ``You are a 
prostitute. Go back out in the street,'' the pimp waiting in 
the parking lot, the collaborative courtroom brings everyone 
together. It brings law enforcement. It brings mental health 
issues, health services as well as housing issues.
    One of the biggest issues is being able to isolate these 
young girls into a safe housing situation because if they don't 
go back out there--and most of them are tattooed and marked in 
different ways. The pimp is on the look to make their life 
miserable or kill them.
    So we have to bring some even to get into the juvenile 
justice system. We are doing some foster care training kinds of 
situations to be able to protect these young ladies from the 
violence that they are confronted with.
    But this is a small scale. We have a dedicated courtroom, 
this collaborative courtroom. The only cases they hear are 
these young cases. And so we are able to protect them. But 
there is so much more. I mean, we could do more if we had 
obviously additional funding to expand the program.
    But those wrap-around services for these young ladies, I 
can't tell you how important they are because they have no 
self-esteem. They have none. And these scum bag pimps are just 
saying, ``We love you. You are the most beautiful girl I have 
ever seen. I promise you a job, retire,'' you know, whatever it 
may be. And there they go. And it is not their choice.
    And so when we are able to bring them in, treat them like a 
victim, not a guilty party.
    Mr. Myles. I would say to the issue of response time, it is 
a great question. It is something that we focus on every single 
day. And I think there are some nuances to it.
    First, it depends on the type of call. So what is that 
person calling about? Is it a crisis? Is it a tip? Maybe they 
are calling about general information. Maybe they are calling 
about something that they would like to talk about a few months 
down the road. So it depends on how urgent is that call.
    The second thing is we try to be caller-centered in running 
the hotline because we want to build trust with the callers. We 
don't want people to feel like when they call the hotline, they 
are going to get put in the situation that they didn't want to 
get put into. So what does that caller want? And does that 
caller want to be in touch with law enforcement? What are they 
seeking?
    Third, the question is, what is the level of detail people 
are calling in? If someone is on a bus and calls in, says, ``I 
am looking at something suspicious,'' but whatever else, we 
might not have anything specific to act upon, but if they call 
in and say, ``Here is a name. Here is a number. Here is a 
license plate,'' we have actionable information.
    Fourth, it depends on the local infrastructure that exists 
there. We are in touch with all of the human trafficking task 
forces, the ACT teams, FBI offices, ICE offices, local police 
departments. If the infrastructure is there, we can leverage 
it, but if the infrastructure isn't there and they are calling 
in in a remote area or they are calling in in a place where the 
response time might not be there for any other crime, then that 
is something that we have to deal with.
    What I would say is when we do need a kick in the gear with 
a specific crisis call, we have seen cases with response time 
in minutes, getting into the hands of law enforcement and 
people responding, but sometimes people need to realize that 
that is what 911 is for also. If they are really dealing with 
something that needs an urgent crisis, we are recommending 
people go directly to 911.
    There are other hotlines out there. Law enforcement 
operations sometimes operate hotlines in L.A. There is the 
Department of Homeland Security tip line. So people can call 
other law enforcement sources if they want to go directly to 
law enforcement, but if they are calling a nonprofit hotline, 
for all the benefits of calling a nonprofit, trust blue 
collars, those types of things, we can still build that 
response time as quickly as we need to in the places where that 
capacity is there.
    Chairman Royce. We are going to----
    Mr. MacDonald. Mr. Smith, I am really glad to--oh, I am 
sorry.
    Chairman Royce. We are going to go to Karen Bass of Los 
Angeles. Congresswoman?
    Mr. MacDonald. Okay. I will answer your question later.
    Chairman Royce. Go ahead. Go ahead. You had something.
    Mr. MacDonald. I was just going to very quickly. I was glad 
that Congressman Smith mentioned this issue of poor labor-
monitoring situations because far too many companies rely only 
on very superficial audits to get a sense of what is happening 
in their supply chain. That is simply not enough. And we are 
certainly seeing that with the fires in Pakistan, the building 
collapse in Bangladesh, just a terrible tragedy.
    What we are asking for, what we are asking you and 
everybody else is to really ask tough questions of these 
companies. An audit is just a simple first step in finding out 
what is happening. It has nothing to do with actually putting 
in practices and place and building in incentives, like the 
ones that I mentioned that really make the supplier factories 
and farms step up, pay attention, and be held accountable for 
what they are doing.
    So what we are really concerned about is that with more 
transparency around this with the California law, for example, 
with the executive order, the companies will get away, so to 
speak, with simply saying, ``Of course, we monitor our supply 
chain'' but leave it at that.
    Chairman Royce. Congresswoman Bass?
    Ms. Bass. Again, I want to really commend the panel for the 
work that you have been doing and for your testimony today. And 
I wanted to follow up with what my colleague Chris Smith was 
asking about what happens afterwards.
    Supervisor Knabe, you talked about the collaborative 
courtroom. And I wanted to understand what gaps there might be 
in L.A. And I know that this is a challenging population also. 
Sometimes they are not necessarily willing. They want to be 
rescued, but then, you know, they go back and forth.
    And so my question concerning gaps is after we have been 
through the courtroom process, what kind of support do we have 
in L.A. County to assist the girls once they are, you know, 
through the court process? Do we have community-based 
organizations?
    Mr. Knabe. We have community-based organizations we are 
working with. Our own Department of Children and Family 
Services is working with them.
    The unfortunate thing, probably the most difficult 
situation that we confront and probably the biggest gap is 
housing----
    Ms. Bass. Right. I see.
    Mr. Knabe [continuing]. And our ability to place these 
young people in safe conditions. As an example, sometimes we 
are forced to actually bring them into our juvenile halls. 
Okay? But that is also a dangerous situation because they 
almost have to be isolated from the population because you 
always have to remember there are other young victims that 
still want to be part of the prostitution ring that will say, 
``Hey,'' so and so ``is in the system. She is in here.'' And 
there will be threats on their life.
    So the placement, the biggest gap, the biggest gap, is in 
housing, whether it is being trained, our foster care folks, or 
being able to site a home for six or eight girls. You know, we 
do have those projects available. And we are working on them 
with, you know, various community kinds of groups and programs, 
but that is the number one gap, is housing.
    Ms. Bass. And, also, Mr. Smith mentioned that child 
prostitution was a misdemeanor in L.A. County. Is that 
accurate?
    Mr. Knabe. It is being treated as that. One of the things 
with your groundbreaking legislation--and now we have two new 
pieces of legislation which have been introduced to--well, 
first of all, the CASE Act, which passed overwhelmingly last 
year is the toughest human trafficking law in the United 
States, but we have added--one of the things we are trying to 
do is add pimping, pandering, human trafficking to the list of 
crimes associated with gang activity----
    Ms. Bass. Right.
    Mr. Knabe [continuing]. Because that is a huge deal. And 
obviously that would help us better assist some of our foster 
kids as well as--unfortunately, the system is not equipped to 
handle it right now. And so we are going to have to rely on 
more stringent penalties for these pimps and what they do to 
these young girls, you know, to create a situation where it is 
not as fruitful or they are put away for life.
    Ms. Bass. Well, I think one of the things that needs to 
change is our whole orientation toward this. I convened a 
meeting in Los Angeles of ministers to talk about the 
situation, particularly in south L.A. And I think we even need 
to get away from using the term ``prostitution'' because I 
don't know how you can be a prostitute at ten. You know what I 
mean? That is child rape. And I think we need to change our 
whole orientation as to how we even look at the situation. And 
I think with that will flow more resources, hopefully.
    Mr. Knabe. Well, I would agree totally. I mean, that is one 
of the great things about the collaborative courtroom because 
they are not being treated as prostitutes. They are being 
treated as rape victims. And, as I said to Mr. Engel, I said, 
look it, this is not a comfortable subject for anyone. And we 
are going to have to rely on faith-based communities, one of 
our sources for group homes. I mean, that is another option 
that we have that we are looking at.
    So just the level because people don't want to say, ``It is 
in my backyard'' or ``It is in my city'' or ``It is here or 
there.'' You know, they want to talk about it. And it is the 
same problem you run into with your food chain kinds of 
situations with your companies.
    And so I would totally agree with changing it from 
``prostitution'' to ``rape victims'' or----
    Ms. Bass. And it is the community awareness. So I was 
encouraging the ministers to slow down their cars and look in 
the faces because if you look at the females that are on the 
street, you can see that many of them are our children.
    Mr. Knabe. Oh, absolutely. Absolutely. And, I mean, one of 
the things with this whole billboard and the flyers that we put 
out there, you can't just do that. It has to be training in 
awareness involved with that because it is not just a billboard 
saying. And it was law enforcement has to recognize. Look it, 
these young ladies have to get much better treatment than a 
backpack would on a train left by itself--you know, after 9/11, 
we did everything--and to be able to recognize.
    We had our CEO of MTA out of recognition, a successful 
recognition, because he was riding the trains. And so there is 
a public awareness that is so important and training that is so 
important and have people say, ``Look it, I am not comfortable 
talking about it, but we have got to fix it. I want to be part 
of the solution.''
    Ms. Bass. Thank you. Thank you very much.
    Chairman Royce. We go now to Judge Poe from Texas.
    Mr. Poe. Thank you, Mr. Chairman. Thank you all for being 
here. I appreciate your candor, especially the supervisor's 
candor. I like the way you say things.
    Just a quick background. I was a judge in Texas for forever 
before I came up here. And this trafficking issue is a scourge. 
Unfortunately, my hometown of Houston, Texas is the center and 
hub of international trafficking into the United States. Women 
are sneaked into Mexico from the south, from the Atlantic, from 
the Pacific, and then they are smuggled into the United States. 
Houston, by its location, is where they are brought. And they 
are scattered everywhere, including all the way to Los Angeles.
    It is my understanding, as you have pointed out, that the 
issue of where to put these young women is a major problem.
    There are approximately 5,000 animal shelters in the United 
States. I love those places. I got my Dalmatians from Dalmatian 
rescue. Good for them for doing what they are doing.
    But, according to Mr. Myles, your organization, the Polaris 
Project, last year, you said or your Polaris Project said that 
in the whole United States, there are only 1,644 beds for 
trafficking children or trafficking victims.
    Mr. Myles. All victims.
    Mr. Poe. All of them throughout the whole country?
    Mr. Myles. Yes, sir.
    Mr. Poe. That is not near enough based upon the massive 
problem that confronts us.
    Supervisor, I want to ask you about who is running these 
operations. You said it is organized gang activity. Are the 
drug cartels involved in bringing in these young kids primarily 
into the United States or is it an independent group of 
criminals doing this?
    Mr. Knabe. I think you have both. I mean, you do have the 
independent group of criminals doing it, but, unfortunately, in 
our backyard with one of the largest gang populations in 
America, the gangs are getting into this business. This 
business is so much safer than dealing with drugs or guns and 
so much more profitable. I mean, they could take these young 
women and make them turn tricks five, six, seven, eight times a 
night. They can only sell a drug once, and they can only sell a 
gun once. So they are organized. And many of our gangs have not 
only domestic connections but international connections as 
well. So there may be.
    And we are trying obviously to isolate that to see if there 
is any drug cartel involvement in the trafficking, which 
probably there will be, but it has not been validated yet. But 
it is organized I think through the gangs, but there are a lot 
of independent camps out there.
    Mr. Poe. There are three people involved at least in the 
human trafficking. Of course, there is the victim. I think as a 
culture and society, we need to focus on helping that victim, 
rescuing the victim from forced prostitution, human slavery. 
That is a word and a phrase nobody wants to talk about, human 
slavery, which is what this is.
    And then you have got the criminal element that brings 
these kids into the United States. But then you have in the 
middle the consumer. You have got the person that is paying for 
this awful deed. As a society, I think we have got to focus on 
who those consumers are.
    And if convicted, if I had my way, if these folks were 
convicted of human trafficking, exploiting young women in human 
trafficking, that is when we would use the internet. We would 
let the world know what these folks look like. They don't want 
anybody to know who they are. Of course, you put the trafficker 
in prison for as long as you can, but the victim is where I 
think the system has to start as allowing all victims. And this 
idea that many of these victims are immigrants brought in the 
United States and the pimp says, ``You turn me in. I am going 
to make sure you are deported. You will never testify against 
me,'' we have got to work on that problem, making sure they can 
come forward and testify, safely testify.
    But what can we do right now? As my time is expiring, what 
can we do right now as a body in Congress to move victims' 
issues to the front on these young women? Any of you want to 
weigh in on that?
    Mr. Knabe. Well, I mean, from my perspective, obviously, 
you know, adding the pimping, the pandering, the human 
trafficking, the list of crimes associated either with gang 
activity or some of the other kinds of things that make it even 
more difficult to get a domestic media that is cooperative in 
putting out to consumers faces or names out there as well in 
the public are things that could happen immediately without a 
lot of, you know, Federal debate or stage debate or county 
debate, are the kinds of things that we need to get the 
information out there.
    Mr. Myles. Two points briefly. If I could just jump in, 
Judge Poe? I think one is what we are seeing around the country 
is that states are recognizing that these kids are victims and 
shouldn't be treated as ``child prostitutes.'' So you have 
certain states that are looking at laws that really do change 
the paradigm in the way that Congresswoman Bass was talking 
about. So these kids are seen in the victim situation as 
victims of abuse, not as criminals.
    Only about 11 states have done that so far. Thirty-nine 
other states haven't. So if Congress were to say, ``It is the 
sense of Congress that we do believe that these children should 
be treated as victims,'' that would send a signal to the 
states. Even like a sense of the Congress resolution would 
work.
    And, then, secondly, to the point about the buyers, these 
buyers of children, police departments can police the buyers 
with a decoy ad. You could put a decoy ad on an online site 
about a fictitious child, set up an operation in a hotel room, 
and you are going to have 30 guys coming up trying to buy that 
fictitious child. And you do a massive sting.
    We have seen it happen in Montgomery County. We have seen 
it happen in Phoenix. There is nothing stopping more police 
departments from doing that, including a shockwave of basically 
deterrence for buyers attempting to buy children. Publicize 
those things in a major way. If we had 10 or 20, 30 cities do 
that simultaneously with a decoy ad and some hotel-based 
reverse stings, without even a child involved, you could see a 
massive shockwave against the buyers. And I think it would have 
a major, major effect. I would say those are two things I would 
love to see concretely happen.
    Chairman Royce. Will the gentleman from Texas yield to the 
gentleman from New Jersey?
    Mr. Smith. Just briefly.
    Mr. Poe. Yes. I will yield. I will yield to----
    Mr. Smith. Thank you for yielding.
    Just to underscore that the Trafficking Victims Protection 
Act made it very clear in its definition that anyone who has 
not yet attained the age of 18 and anyone who commits an act, 
one commercial sex act, is liable for the full sanctions, the 
full criminality that is ascribed in the law. And that is up to 
life imprisonment. And then after that, after 18, it is force, 
fraud, and coercion.
    So we already have a Federal law that makes it absolutely 
clear. We do need state laws to mirror that so there are more 
tools for prosecutors, but we already have it in Federal law.
    Chairman Royce. We go now to Dr. Bera, California.
    Dr. Bera. Thank you, Mr. Chairman and Ranking Member Engel. 
And I would also like to thank Chairman Smith and Ranking 
Member Bass because in our Global Health and Human Rights 
Subcommittee, we have been talking about this issue at the 
international level.
    I look at this as a doctor. I mean, this is shameful. It is 
ridiculous that this happens today in America and throughout 
the world. And it is an outrage. It is an affront to our moral 
fibers as a country. And we have to take this seriously.
    Supervisor Knabe, it is a difficult and uncomfortable 
conversation, but it is exactly the conversation we should be 
having as parents. If we want to stand up morally as an example 
for the rest of the world, we have to lead by example. We have 
to lead by having this conversation and showing how shameful 
this is. And it is unacceptable for us not to have this 
conversation in communities, states, and throughout this 
country. It has to happen.
    Now, my home community is Sacramento County, where we have 
a horrible crisis on our hands as well. We are one of the top 
five communities for human trafficking. And I am proud that our 
sheriff has partnered with the FBI to do what they can, but, 
all three of you have already pointed out, it is not nearly 
enough.
    And, you know, I guess my question to all three of you is, 
you know, these are well-intentioned organizations, you know, 
our law enforcement agencies, the FBI, the nonprofits in our 
communities, that want to do this. How do we elevate the 
national conversation? How do we raise the temperature in this 
so it is being talked about across the spectrum and it is 
deemed unacceptable?
    Mr. Knabe. Well, from our perspective, obviously the 
Federal partnership is extremely important. I mean, I think 
when we hosted that Smart Justice Symposium of National 
Association of Counties, people coming from all over the 
country, by having the Homeland Security folks there, the FBI, 
I think it raised the level of attention that we weren't just 
doing Los Angeles County, it wasn't just in the streets of Los 
Angeles County, but it is throughout America. Polaris and 
others are bringing that attention as well, too.
    But the conversation, I mean, we can start locally, and we 
can do the building blocks. And we can keep expanding it. But, 
even in your own law enforcement communities, you know, they 
were amazed what is going on in their own backyard because it 
is a whole training. It is a whole educational process to make 
them aware and make everyone aware just how significant this 
issue is and how repulsive the issue is and that we need to do 
more about it to isolate, to have a particular unit within a 
law enforcement. There are metropolitan. You know, the 
transportation police, everyone should be a partner in this.
    But the Federal elevation to let everyone know that it is 
not just locally isolated to one community or another but it is 
a national issue, your leadership and your partnership have 
been a very important part of that.
    Dr. Bera. And I would put my own profession. Health care 
has to be part of this, health care providers.
    Mr. Knabe. Bring in doctors.
    Dr. Bera. Exactly. For years, we have been training our 
doctors on domestic violence recognition and so forth. Doctors 
are seeing a lot of these victims as well. And they have an 
obligation.
    Mr. Myles. Yes. I think what I would add to that briefly 
is, in addition to the political wealth, in addition to the 
leadership, in addition to faith-based communities taking on 
this issue at the President's Advisory Council on Faith-Based 
Neighborhood Partnerships, I think that when certain types of 
research come out that show certain effects of this issue, it 
is going to get the attention of many people. And it is going 
to spike that political will.
    For example, if someone were to ask any of us in this room 
right now and say, ``How many victims of trafficking are there 
in the United States right now?'' none of us have a good 
answer. We would have a few estimates, but we haven't had a 
full research study to look at men and women, immigrants, and 
U.S. citizens, sex, and labor, boys, and girls, all the types 
of trafficking. So we can't put a number on it.
    When we put that number on it, that will be able to 
generate media. That will generate police attention. That will 
generate political leadership.
    And then, secondly, from the health perspective of health 
research, when you start looking at things like CDC research on 
adverse child experiences, the ACEs, and if you say these kids 
are so vulnerable because they have gone through these 
different types of traumas as children, pimps are targeting the 
vulnerable kids, and when we make the public health argument, 
that will also create the political will.
    Dr. Bera. So that is an actionable item. Let's raise the 
level of this crisis. Let's put a number on there. That is an 
actionable item that raises awareness and talks about how this 
is happening in every community in every state across this 
country.
    Mr. MacDonald. Can I just add it is very difficult to talk 
about this subject, but what is more difficult is for people to 
talk about labor trafficking. You will note just in the 
conversation now that also in the media and generally, there is 
a lot more focus on sex trafficking, but if you look at the 
global estimates and the estimates in the U.S., even though the 
numbers aren't as clear as they might be, labor trafficking is 
a bigger problem and is something that we are all much more 
connected to. It is not just ``Those pimps over there, those 
poor victims,'' and so on. It is something that we are all 
connected to.
    And it is harder for people to talk about that because we 
are all implicated in the way most companies are implicated in 
their supply chain. And that is where I think we need to be 
able to get past some of these really loaded terms and say, 
``Are you involved in slavery?'' but, instead, saying, ``How 
are people hired into your company? How are the companies that 
are making your products hiring people? Do they have safeguards 
in place?'' so it becomes something very concrete and practical 
about business operations, not so much ``Are you a trafficker 
or are you not? Are you one of these awful companies that has 
slavery or not?'' because it is everywhere. It is based on the 
way that so much of our global labor situation is organized 
today.
    So I really want to make that point that to keep in mind 
that labor trafficking is also something that we need to learn 
to talk about in a more routine way.
    Dr. Bera. Absolutely.
    Chairman Royce. We are going to Jeff Duncan, South 
Carolina.
    Mr. Duncan. Thank you, Mr. Chairman. And thanks for this 
very interesting committee hearing, very informative for me, 
especially in light of what was revealed today in Cleveland 
with three young women being abducted and held hostage for a 
decade in a standard neighborhood that you might find in that 
area or in my hometown.
    So, anyway, you mentioned, Mr. Myles, that the U.S. has a 
national hotline and the number of calls that you have gotten 
from 104 different countries. I guess that piqued my interest a 
little bit. Typically why do people from other countries call a 
U.S.-based hotline?
    And then are there other creative ways we may be able to--
well, is that a 1-800 U.S. number and how that exactly works, 
but then are there other creative ways that we are utilizing 
along those same lines? Are there numbers or Twitter or 
Facebook, other things, social media that we might be able to 
use to contact law enforcement to say, ``Hey, I am captive. I 
am a sex slave. I want out. I need help''?
    And then I want to ask you to elaborate a little bit. Okay. 
If a call does come in and the young girl says that, how does 
the U.S. get involved in rescuing that girl from that position 
of captivity?
    Mr. Myles. Well, those are two great questions. And I think 
that, even pointing out the Cleveland case, if you look what 
happened in that case, it was a neighbor, Charles Ramsey, who 
played a role in identifying those girls, right? And so I think 
that that signals to me the role that community members can 
play in identifying what is going on in their community, 
identifying suspicious behavior that we encounter.
    The majority of calls that we get into the national hotline 
in the U.S. are from community members who identified 
something. They identified a house on their street with 
something suspicious. They identified somebody approached them 
about a trafficking situation, and they are calling in.
    So what we would like to see is saturating that awareness 
so that community members can know what to look for and know 
who to call. And that is going to lead to more cases being 
identified.
    Mr. Duncan. If it is an international call----
    Mr. Myles. Yes.
    Mr. Duncan [continuing]. Because you said you received 104 
different countries. So how would the U.S. get involved in that 
situation?
    Mr. Myles. Yes, sir. So we have received these calls from 
other countries. And we had the same question ourselves. So we 
ask, ``How are these other countries calling us? We are the 
U.S. national hotline.''
    But what we realized is that sometimes there isn't a 
national hotline in other countries. And so a person who is 
very determined to get a response to their case, they will 
start calling different places. And so they have called the 
U.S. hotline. So one reason is there might not be a hotline in 
their country. Second reason is they might not be getting a 
response from the hotline in their country. There might be a 
hotline but no one answers it or they have gotten an answering 
machine.
    And so somebody who believes they have identified a 
trafficking case, they have fire in their belly to respond. And 
they want to get a response. And they will start calling. We 
are 24/7, and they can call us.
    Sometimes people call us through Skype. Sometimes people 
call us through certain online services. And we also have not a 
toll-free number but an actual 202 number that people can call 
internationally and contact us.
    So people have reached out to us. And what that has taught 
us is that is what has led us to want to work on this Global 
Human Trafficking Hotline Network. That is what has led us to 
want to help to build hotline in other countries because we 
need to build that local capacity in other places so people can 
call their own local country human trafficking hotline, instead 
of having to route it through us.
    So we are working on identifying what the response is on 
those other countries. We are working to identify what those 
hotlines are in other countries and build that response so the 
calls aren't coming to us all the time.
    Mr. Duncan. Okay. Well, just shift gears a little bit. I am 
on the Homeland Security Committee here in Congress. And you 
gentlemen are familiar with DHS' Blue campaign. The question I 
have is, do you see it as effective? And what recommendations 
would you have for DHS so they could improve? That is law 
enforcement training. That is investigations, public outreach, 
and other things.
    And so a) do you think it is effective? I ask all three of 
you that. And b) what more could DHS be doing? Because they do 
play a vital role, especially with cross-border issues.
    Mr. Knabe. Well, from Los Angeles County's perspective, it 
has been very successful. And I think DHS' opportunity is to 
give the whole program credibility that it does exist and it is 
just more than the back streets of your own community.
    Their involvement with the Blue program as well as others 
had a very big impact at our justice symposium because it made 
folks around the country--Department of Homeland Security is 
different than the local sheriff's department or local PD in 
the sense that it raises the global network, it raises the 
international significance, and it gets the level of 
conversation going that says, ``Well, it doesn't exist in my 
community.'' It does.
    I think DHS on long term on moving forward, obviously their 
awareness and their ability to train local law enforcement in 
identification and kinds of activities and the network and in 
conjunction with the hotline and those kinds of things and pure 
points of contact could be incredibly successful and helpful to 
all of us at the local level.
    Mr. MacDonald. I would just add that in general, with the 
Customs enforcement role of DHS, that there is more opportunity 
for creativity around the way that they identify and try to 
work with importers of products so they are made with child 
labor and forced labor. There are statutes around that but not 
always a lot of clear enforcement.
    And I know that somehow--I don't know all of the 
particulars. I am sorry. But somehow there is a role for the 
Customs enforcement people. And I know that they have been 
looking at ways of doing trainings and so on in their overseas 
offices to better understand labor conditions for products that 
are being imported here, but I think that there is always a lot 
more that can be done around that.
    Mr. Duncan. Right. Well, I am out of time, but are you all 
familiar with the coordination, collaboration, capacity report 
plan that the President is working on? The public comment 
period is still open on this, my understanding. And I hope you 
guys get involved.
    And, with that, Mr. Chairman, I will yield back.
    Chairman Royce. We will go now to Tulsi Gabbard. 
Congresswoman Gabbard?
    Ms. Gabbard. Thank you very much, Mr. Chairman.
    Dr. MacDonald, you mentioned the difficulty that exists 
within our culture in talking about labor trafficking, in 
particular. And I know there was some mention of this being 
addressed with some larger corporate entities, like Wal-Mart, 
et cetera, but I am wondering if you can address how we can 
deal with maybe the smaller either companies in different 
industries, whether it is agriculture or the garment industry, 
who have a little easier time flying under the radar.
    Just one example, in my home State of Hawaii, we saw in 
2010, the largest human trafficking case in our country's 
history where there was a labor recruiting company that bought 
400 immigrants from Thailand to work in farms in the State of 
Hawaii. It did not have a good outcome in that the Federal 
prosecutor, unfortunately, misstated the law in front of a 
grand jury, which ended up throwing the whole case out, but it 
led to a heightened state of awareness, within our own 
community and I think nationally, about these kinds of entities 
that are really using economic intimidation in providing 
basically slave labor.
    So I wonder if you can address how we can, either through 
the carrot or the stick approach, deal with some of these 
smaller entities?
    Mr. MacDonald. Well, I think definitely at the level of 
public policy, there are many ways that foreign labor 
recruiters within our guest workers visa system can be held 
more accountable through more transparency, more clear 
oversight of what they are doing. And that is a conversation 
that is very active now in the immigration reform debate.
    But also at the state level, more states are doing things 
to try to hold employers as well as labor recruiters 
accountable. In the State of California, there is a bill that 
is moving its way fairly quickly through the state legislature 
to have stronger accountability measures for labor recruiters.
    I think the other thing that we are hoping to see, as I 
mentioned in my remarks, I think, before you arrived, is that 
the President's executive order saying all Federal contractors 
have to have a very specific plan in place for due diligence 
measures for labor recruiters who are providing the workers to 
Federal contractors, that is a real game changer because the 
Federal Government obviously buys a lot of things, has a great 
number of contractors. You pair that with some of the other 
efforts underway, and I think you will see that there is real 
reform happening possible within the labor recruiter sector, 
but a lot of attention, a lot of action needs to be taken.
    We are at the beginning steps. The guidelines are in place, 
including the ones that I mentioned, in a real world for better 
public policy, but I think as that happens, market forces will 
come to bear. And an American farmer; an American warehouse; 
big retailer like a Wal-Mart, will know what kind of questions 
to ask in holding their suppliers accountable for how they are 
hiring their workers because now it is essentially an 
unregulated industry, both here in the U.S., very poorly 
regulated, and overseas even less so, where people who can just 
register as a company and then go about charging people $20,000 
to $30,000 to get a U.S. guest worker visa for a job in one of 
these supply chains that I have been referring to.
    So there is a lot of work to be done, but we and others 
have a lot of recommendations for what companies can do in 
their supply chains. And then we and Polaris Project and other 
NGOs that are part of the Alliance to End Slavery and 
Trafficking and the International Labor Recruiters Working 
Group, another set of NGOs have a lot of recommendations for 
stronger accountability for labor recruiters.
    Ms. Gabbard. The Federal contract accountability that you 
just mentioned, that is for Federal contracts that are 
administered both here as well as overseas?
    Mr. MacDonald. Yes.
    Ms. Gabbard. Great. I think that is all. Thank you.
    Ms. Ros-Lehtinen [presiding]. Thank you very much. I want 
to thank Chairman Royce, who just stepped out for a few 
minutes, for holding this important hearing this morning. I 
will recognize myself for my 5 minutes.
    Human trafficking, as we know, is one of the worst, most 
alarming human rights issues of our day depriving millions 
around the world of their most basic dignity as human beings.
    And, given today's interconnected global economy and the 
reach of many organizations throughout the world, it is 
imperative that we find more ways to enlist the help of 
businesses and local organizations to help fight this awful 
crime.
    Many of the victims associated with human trafficking, as 
we know, are women and young girls who are forced to enter 
prostitution. Many who are attracted to our Nation are migrant 
workers from Mexico and Central America.
    So, Dr. MacDonald, how can we improve working relations on 
the border to help fight labor trafficking from Latin America? 
And what consequences should the U.S. place on companies for 
blatantly ignoring trafficking problems in their business?
    Also, it is not surprising that dictatorships around the 
globe are the largest violators of international anti-
trafficking standards and do nothing to protect people from 
this modern-day slavery. Once again, the regimes of Iran, Cuba, 
Syria, and North Korea are designated as top tier III countries 
in the 2012 Trafficking in Persons report issued by our State 
Department.
    In Cuba, the Castro tyranny supports and encourages the sex 
tourism industry by exploiting vulnerable women and children. 
According to a recent report by El Nuevo Herald in South 
Florida, foreigners travel to Cuba to take advantage of young 
women who are recruited to enter prostitution in order to fill 
the coffers of the Castro brothers.
    On Central America, reports are that drug cartels and gangs 
are using their narcotic routes to traffic human beings across 
the border. These individuals may be migrant workers, drug 
traffickers, and even terrorists.
    So, Supervisor Knabe, what actions is your local government 
taking to prevent trafficking in the California-Mexico border? 
And how can we ensure that our allies in the region prioritize 
this threat as we have? As we consider the global scope of 
human trafficking, we must be clear that it occurs within our 
very borders, making this a domestic challenge as well as an 
international one.
    And this is especially true in my home district of South 
Florida, a region with one of the highest rates of human 
trafficking in the country. It is an appalling reality. And I 
remain committed to making sure that we have every effort at 
work in order to fight it because the promotion of basic human 
rights and human dignity must remain a cornerstone for the 
United States as our foreign policy initiatives.
    So, Supervisor and Dr. MacDonald, if you could address the 
issue that I brought up in my questions?
    Mr. MacDonald. Okay. I will just quickly say that I think 
it is--I am glad you brought up this issue of what is happening 
in the border because I think it is really important that with 
all of the attention placed on the drug war there and the 
smuggling and trafficking of people across the border, that 
many companies that have those workers within their supply 
chain need to be held accountable for how those workers are 
getting there. And it is really important to note that the 
people who are trafficking the drugs, trafficking the weapons 
are also trafficking the people, that there is a great deal of 
overlap between these gangs and this organized crime.
    And so if you are relying on workers who are taking those 
migratory routes, then, without a doubt, you are entangled in 
this problem. And to try to say that you are not is simply 
burying your head in the sand.
    And so, whether those people are coming here with documents 
or not, very often traffickers are involved. And so companies 
really must focus on what steps they can take, concrete steps, 
rather than try to pretend that they are not entangled with the 
issue. And that is where----
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. MacDonald. Okay.
    Ms. Ros-Lehtinen. Thank you.
    Supervisor?
    Mr. Knabe. Well, great question. You have given me an 
opportunity to do a little soapbox here. I mean, at the end of 
the day, those of us in local government, our job is to solve 
the problem, to fix it with the resources that we have. That is 
the case in some of the cases, particularly like items like 
this.
    We are at the beck and whim of the Federal Government and 
the state government to put the tools in place that covers 
everybody. We only as a county can do so much. As it relates to 
gang issues, penalties, those kinds of things, we need state 
legislation, enabling state legislation. We need Federal 
legislation to really raise the level so we can continue to do 
our jobs.
    You know, these young girls, nobody asked them whether they 
are Republican, Democrat, Libertarian, or Independent. They are 
true victims. And those of us at the local level have to deal 
with that. And that is why we appreciate your leadership here 
and others because we need that leadership and we need that 
assistance, both at the Federal level as well as the state 
level.
    Ms. Ros-Lehtinen. We thank you, each one of you, for what 
you are doing.
    So proud to recognize Mr. Vargas for his 5 minutes of 
questioning.
    Mr. Vargas. Thank you, Madam Chairman. Thank you again for 
allowing me to speak.
    I want to thank all of you for being here also. This is a 
horrible crime that happens right here in the United States, as 
you have all said today. I represent the border area in 
California, represent San Diego County. It is a horrible crime 
there.
    I have to say I have been working with the Federal 
prosecutors because we do have some problems in the Federal 
law, laws that we can change. And, in fact, I have sponsored a 
bill, H.R. 1690, which does this. Right now a prosecutor has to 
prove that a sex trafficker knew the child was a child. It is 
very difficult to do to prove that the trafficker knew that the 
child was a child. So what this bill says is that you don't 
have to prove, the government doesn't have to prove, that this 
pimp knew that the child was a child. The government has to 
prove that the child is a child. So the government just proves 
that this person is a pimp. He was sex trafficking this child. 
The prosecutors say that that will go a long way in being able 
to put people away.
    We are working with the prosecutors in San Diego and a very 
courageous young woman that escaped from these pimps. And her 
pimp ultimately got 30 years because she did have the courage 
and she did have the wherewithal to stand up in court, which is 
very difficult for a child to do but to be able to put this guy 
away for 30 years. And that is what we will be able to do if we 
can change the law.
    So I would hope that maybe we could get behind that bill, 
H.R. 1690. I think it is a very good bill. And I agree we 
glorify oftentimes the pimp. And we revictimize the victim and 
in this case a child. So we need to change Federal law right 
here in the United States to be able to go after these people.
    Supervisor Knabe, you have been a hero to many of us. Would 
you like to comment on that particular law or hopefully 
change----
    Mr. Knabe. I think this week, you are going to have five 
young heroines here who will have the willingness to stand up. 
And they are five victims that have survived that are coming 
into town. You know, whatever tools are necessary when you go 
back to the question about what we can do, we can only do so 
much. But given the tools, like an H.R. 1690 or others, that 
would really help us at the local level work with our Federal 
prosecutors. You know, how we are able to raise this whole 
issue as it relates to the penalties, the better off we are 
that we are going to be able to--once we ID the folks, get them 
to court, do all the things that we need to do, that we have 
the laws that are on the books that everybody will recognize 
and can put these people away, whether it is 30 years, whether 
it is 60 years, whether it is 90 years.
    But at the end of the day, you know, we need to wrap our 
arms around these young ladies to give them the courage. And 
that is the whole purpose behind the collaborative courtroom.
    Mr. Vargas. Thank you. Again I would like to note that it 
is very difficult, however, for a child to stand up in court 
because, you know, the opposing is tough, you are before all of 
these people. You know, we need to change this law. I mean, we 
absolutely need to change this Federal law to say, ``No. You 
know, if you are a sex trafficker, if you are sex trafficking 
these children, the government has to prove that you are doing 
that, but it ought to be strict liability if it is a child. You 
are going to go away for a long period of time'' because 
otherwise they have to, unfortunately, give them a light 
sentence because the child doesn't want to or can't go and 
testify. So I am hopeful that we can get behind the law and 
change it right here.
    Would you like to comment on this? I know that we are 
reaching out to your group. Would you like to comment?
    Mr. Myles. I think you are pointing out an important issue. 
I know of one Federal case where they were trying to prove that 
the pimp knew that the child was a child. And there happened to 
be this bizarre occurrence where, actually, the father of the 
child had been hunting his child down for months trying to 
recover her. He finally learned she was in a hotel room. And he 
kicked in the hotel room door. And he saw the pimp in the room 
with his child, who was a minor. And he said, ``You'' so and 
so, ``she is not yet 18. I am her father.'' And that father was 
able to testify in the courtroom to say, ``I informed him that 
the child--that he knew that the child was a child because he 
heard me say that she was my daughter.'' How many times does 
that actually happen in a case, right, where you could actually 
find the father who hunts that down?
    So I think you are right. I think that you are zeroing in 
on an important area of the law where to prove that the 
trafficker knew that the child was a child in a random 
occurrence where the father bursts into the hotel room and has 
to say it, but lightning has to strike for that to happen. So I 
think that we can't rely on that to get this many pimps at 
scale to create the turn effect at scale that we need to.
    Mr. Vargas. Well, many of them are runaways to begin with.
    Mr. Myles. That is right. And other times what the 
prosecutor has to do, he has to search the record to show that 
the pimp used his own credit card because the child didn't have 
the credit card, a whole bunch of things to prove that the 
person--it is very difficult. I hope we can get behind this 
bill.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Vargas.
    Mr. Kinzinger?
    Mr. Kinzinger. Thank you, Madam Chair, appreciate it. And 
thank you, all, for coming in, such an important issue.
    You know, I always knew this was an issue, but I really had 
my eyes opened. There is a documentary out there; it is 
actually called ``Nefarious.'' And I don't know if you have 
seen it. If you haven't, I would commend that to anybody who is 
either watching this on television or is in the audience. An 
outstanding documentary by basically a missionary I think that 
was--his eye was opened to what was going on.
    Specifically, they hid all over the world, but an area that 
is really disturbing to me is what I saw in Thailand. And I 
know we have been talking about Thailand a little bit, but you 
see, you know, as he documents Americans going to utilize the 
services, if you can say it so crassly, of a 10-year-old girl 
sold into sex slavery as her Dad sits back in his village and 
smokes and drinks all day long, you know, earning the profits 
of his daughter, and really doesn't care, doesn't see her as 
somebody he loves, more sees her as an opportunity, so that he 
can smoke and drink all day long. I watched this documentary 
and this video and it really opened my eyes and was jaw-
dropping.
    One of the things that really has since kind of I guess 
driven me in this issue is the idea that nobody I think when 
you talk about the average American out there, they don't think 
of this as a very serious issue. And I know we are doing 
everything we can to bring it on the forefront. This hearing 
today is part of that. But when you mention the issue to kind 
of ``Johnny on the street,'' in many cases they are interested 
in what you have to say, but they are unaware of the situation.
    So I am actually a co-chair of the Thai Caucus, and in that 
role, obviously, as Thailand, a strategic ally of the United 
States from a foreign affairs perspective, but it gives us an 
opportunity to really engage the government.
    One of the things I saw in this video--and I don't know if 
this is still the case, but that was interesting was the Thai 
Government would actually sponsor billboards that say, 
``Welcome to Thailand, where our greatest asset is our women.'' 
And, you know, you see things like that and it kind of makes 
you wonder, and you start to begin to understand why this is so 
prevalent there.
    So I will ask you a couple of questions. First off--and I 
will get to the second question, too. First off is, what can we 
do to better engage Thailand from maybe a Thai Caucus 
perspective, bringing that to the public attention?
    And, secondly, I represent a district in Illinois, and it 
is in between Chicago and St. Louis. And, actually, as you look 
at domestic human trafficking, you see that Chicago and St. 
Louis is a huge corridor for this. If you look at the numbers 
of it, Chicago had over 250 I think cases of this, and there is 
many in St. Louis.
    What can we do from a domestic perspective? The other scary 
thing is you see cities like Bloomington, Illinois; Normal, 
Illinois; Rockford; where these issues are actually popping up. 
What can we do to better bring this to the American people's 
attention? Whether it is a 911 kind of call center, I don't 
know, or whatever, to bring it so when people see that these 
are occurring they are more aware of it. You know, they are not 
at a club or something, and they are more aware of what is 
going on and we can report it.
    So two questions. I pose those to all three of you, and I 
will start with you, Mr. Supervisor.
    Mr. Knabe. Well, as I said, it is all building blocks for 
us. I mean, we can do what we can do at the county level to 
elevate this issue, and we are doing what we can. But at the 
end of the day, we are going to need to get it where you would 
like to see it and where I think we all would like to see it.
    It is going to take a national campaign of some sort. That 
is going to take a major collaboration of who knows who yet, 
but we are trying to put that together because we can only do 
so much.
    Like I say, in our county, and we are doing a lot in a 
matter of months, but at the end of the day it is going to take 
a national campaign to elevate this conversation because it 
goes--as the others have said, in addition to this human 
trafficking, the workforce, you know, with the ports and, you 
know, all of the other kinds of issues that we have to deal 
with, it will take a national campaign of some kind.
    Mr. Kinzinger. Well, it is like the issue of the war on 
drugs. Everybody became very aware of it through a national 
campaign like the issue of AIDS in Africa, and it is an 
opportunity for the Federal Government to work on that level, 
but mostly also for NGOs and nonprofits to come and make people 
aware.
    Mr. Myles?
    Mr. Myles. Yes, sir. I am glad you saw the movie Nefarious. 
There has been a whole explosion of movies out on this issue--
Nefarious, Not My Life, Very Young Girls, Trade of Innocence, 
Taken. You know, all of these movies are coming out, and what 
is happening is one by one people are becoming more aware as 
they see those movies.
    But it is still happening a bit like popcorn. It is kind of 
all over the place. It is not a centralized national campaign 
the way you are describing, the way the supervisor is 
describing, and so we are moving the needle, but we are not 
moving the needle enough on the national awareness piece.
    And I think we need to be engaging faith communities way 
more on the national awareness piece. I think Federal 
legislation and Federal leadership can move that needle. But 
right now the documentaries and whatnot, they are increasing 
it, but we are not really getting to where we need to.
    To the piece on Thailand, you know, I was in Thailand 2 or 
3 months ago, and I experienced a number of the things that you 
described of just the horror at the sex tourism and the men 
buying children there and seeing it.
    I think one--I asked some questions about hotlines there. I 
said, you know, ``What are the hotlines here?'' They said, 
``Well, there is a hotline operated by the Thai Government, but 
it is not in all of these different languages.''
    So I think maybe asking the question about hotlines through 
the Thai Caucus there is some great work being done to build 
better hotlines there, so put some focus on that, so there are 
some victim identification mechanisms happening. I think that 
is one piece.
    I think the second piece is demand, and this is what Judge 
Poe talked about, the consumer piece. When anywhere in the 
world, or in the United States, when an economy becomes 
dependent on the sex trade and the objectification of women and 
girls, then there becomes an entrenched, monetized interest to 
keep that going.
    So whether or not it is present in a U.S. community or in 
Thailand, that challenge is going to be, and that is going to 
revolve around demand.
    Mr. Kinzinger. Thank you.
    Mr. Myles. Whether or not that is Protect Act cases, 
whether or not that is cases of sex tourism, or whether or not 
that is actually looking at the Thai law to crack down on more 
consumers, that is going to begin to reverse that tide. But 
until then, we have got a huge problem on our hands because 
there is entrenched interest to keep that going.
    Mr. Kinzinger. Great input. Dr. MacDonald, I have got to 
cut you off because we are out of time. Sorry about that.
    Ms. Ros-Lehtinen. Thank you so much.
    So proud to recognize my Florida colleague, Ms. Frankel.
    Ms. Frankel. Thank you, Madam Chair. I also thank the 
chairman and panel for bringing this issue, which I think most 
Americans don't realize the depth of this. ``Horrible'' isn't a 
big enough word to describe what is going on in the 
exploitation of folks.
    I have a number of questions. My first question has to do 
with the exploitation in the labor market, and you talked about 
debt bondage, and so forth. And in that regard, number one, 
could good immigration reform help, in your opinion, this 
exploitation of the human laborers?
    Number two, could stronger labor laws when we enact trade 
treaties, could that also go toward minimizing this human 
trafficking?
    Mr. MacDonald. I will take a crack at that. I think with 
the free trade agreements and the labor agreements that are 
negotiated along with that, it is really important that the 
full spectrum of labor abuses be considered, including the out-
migration and in-migration of workers.
    Very often the way that labor issues are looked at when we 
are investigating a particular country where there is a debate 
about whether there should be a trade agreement, the full 
extent of the labor dynamic is not always properly considered. 
So what is that country doing, not just for enforcing law in 
its own country, but protecting its workers who are moving 
overseas and protecting the workers who are coming into their 
country. So I think that is one point.
    With immigration reform, I am just going to focus on 
particularly this issue of foreign labor recruiters. I think 
one thing that we have found in our own research, and I think 
it is confirmed by a lot of other research, is that workers who 
are confined to one particular job because of the way that 
their visa is organized face a lot more vulnerability because 
they cannot move.
    So portability of employment is really important, as well 
as, as I have discussed before, the issue of accountability for 
the actions of the labor recruiters whom the farms are hiring 
or the businesses are hiring to help them process these visas 
to find the workers. So there are a lot of good proposals out 
there in the world lobbying around immigration to focus on more 
accountability for labor recruiters.
    So I think those are really important points--more 
transparency and accountability for labor brokers and issues of 
portability of jobs for workers, whatever their visa status is.
    Ms. Frankel. Thank you. Madam Chair, I wanted to give a 
shout out to Brandi Macaluso from my hometown, who was just 
recognized by Attorney General Bondi for her work in 
trafficking.
    In regard to the prostitution, trafficking, and so forth, 
question. I mean, it is outrageous to hear these stories, and 
there is a story playing out today. It is domestic, not 
international, in Cleveland. I think the country is going to 
be, you know, outraged by it.
    My question is, though, do you believe that law enforcement 
is really paying attention? Do we have the--because we have 
been talking about awareness and hotlines, and so forth. But 
let us talk about enforcement and getting the bad guys or 
whoever is, you know, behind the trafficking.
    In your opinion, is law enforcement at every level putting 
in the resources and the attention to this problem that it 
should have?
    Mr. Knabe. From my perspective, no. I think the issue of 
law enforcement is no different than the average person out 
there in the streets that thinks this is Third World kinds of 
activities and not here in our own backyard. I think the 
element of training for our law enforcement personnel, 
dedicated strike teams as it relates to this, and, most 
importantly, the legislative backup that when they do get the 
bad guy that the laws are tough enough to put them away for 
awhile.
    I think early on, and continuing beyond, right now when 
they get the bad guy, the bad guy is in and out, you know, kind 
of a thing. Again, going back to what Congresswoman Bass said, 
I think we need to change the name from prostitution to 
something else because they are truly the victim.
    But law enforcement--I know in our own case when we started 
out with these billboards and the flyers on the trains and 
buses and Metro and everything else, it was a whole coordinated 
effort that had to take place because our transportation police 
were not aware of this. They know how to look for the bag that 
is unattended, okay, but the identity of a young girl that may 
be--you know, so it is a whole training and awareness effort 
that they are not aware of. I don't think that they have the 
resources yet, but they need to develop strike teams.
    Ms. Frankel. Thank you. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Thank you very much, Ms. Frankel.
    Mr. Chabot of Ohio.
    Mr. Chabot. Thank you very much, Madam Chair.
    Mr. Myles, let me begin with you, if I could. You described 
in detail the successes of a U.S. national human trafficking 
resources center hotline. As chair of the Subcommittee on Asia 
and the Pacific, I can tell you that we have heard a lot of 
cases about trafficking in Asia.
    The subcommittee staff recently traveled to Cambodia and 
Vietnam, and I had been there a while back as well and heard 
the same things about the depth of the problem of human 
trafficking there. Unfortunately, it doesn't sound like it is a 
whole lot better now than it was some years ago when I was 
there, according to the subcommittee staff.
    You indicated in your testimony that the only country in 
Asia I believe that you are currently working in is Malaysia. 
Does Polaris have any plans to expand its work in Asia to 
include other countries such as Cambodia and Vietnam? You know, 
the entire region's traffic cases are interrelated. For 
example, the Vietnamese women are very highly trafficked in 
Cambodia. They are considered to be the poor of the poor and 
highly discriminated against, and Cambodians are trafficked in 
places like Thailand and Malaysia.
    Hotlines are certainly a good first step. Are there any 
efforts to kind of tackle this problem from multiple sides?
    Mr. Myles. Yes, sir. I think it is a great question. So one 
of our partners on this global human trafficking hotline 
network that we are working on through the Google Impact Award 
is a group in Asia called Liberty Asia. They are working on 
building a regional hotline that would apply to the six 
countries in the Greater Mekong subregion.
    So through that partnership, that is one of the ways that 
we are working in Vietnam, Cambodia, Laos, Myanmar, and other 
countries there. The one country that we have directly engaged 
with is Malaysia. But there is some temporal contextuality 
there to that answer, which is we are starting off on this 
project to try to identify and contact hotlines in every 
country around the world, and provide them training and 
technical assistance.
    We do intend to work with countries methodically, country 
by country, and not just handpick a few. So not only through 
our work with Liberty Asia will we access more countries, but 
through our own work through the State Department funding we 
will be directly interfacing with Cambodia, with Vietnam, with 
the countries that you talked about. So we just haven't gotten 
there yet.
    Mr. Chabot. Okay.
    Mr. Myles. So just give us a few months, and we will get 
there.
    Mr. Chabot. Okay. Thank you very much.
    Supervisor Knabe, if I could turn to you next. Our Embassy 
in Vietnam indicated that many of the labor trafficking cases 
are tied to criminal organizations in California. In situations 
where the trafficked women are from other countries, how do you 
handle those cases?
    Specifically, what happens to those individuals who have 
been trafficked to the United States via forged paperwork and 
against their will? When you step in to rescue them in those 
cases, is there anything in place to work with their respective 
countries to ensure that if they are sent back that there is 
some sort of safety net in place to help prevent them from 
falling victim to other trafficking circles?
    Mr. Knabe. The thing that I am most aware of is that there 
is something in place when they come this way or come to 
California, with our cooperation with the FBI, the Department 
of Homeland Security, and ICE, and we have dedicated folks that 
have that relationship with them.
    So if we, as a unit or as a county, are able to rescue some 
young girls coming across that are human trafficked from other 
countries, we have the situation in place to handle that. I do 
not know, and I can't speak to the fact that when they go back 
what happens. I am not sure that there is that safety net. I 
think that is what everyone is worried about.
    There is a whole ethnic issue here. As an example, the 
largest Cambodian population outside of Cambodia resides in my 
district, in Long Beach, California. So you have issues there 
that you can deal with because they are trying to educate 
because you have an adult population that doesn't look at this 
as horrific as the younger population does.
    They have groups that can reach back into Cambodia, as an 
example, to try to create that safety net. So we are trying to 
use every activity we can, but I can't speak to the fact of 
whether or not there is an exact safety net. I only know 
through some of the Asian community members that I deal with. 
They are trying to create that in their home areas, but I don't 
know for a fact whether--we have it in place to rescue them and 
to return them, but I am not sure at the other end.
    Mr. Chabot. Okay. Mr. Myles, did you want to comment?
    Mr. Myles. Yes. I would just comment briefly. I think you 
are highlighting a really important area where innovation is 
needed in the human trafficking field, which is right now 
countries aren't engaging on a bilateral basis.
    So, let us say, a huge bus of South Korean women is found 
here in the United States. Is there a strong bilateral 
relationship between governments, between law enforcement, 
between nonprofits, to work that case from both Korea and here 
in the United States? Not as much.
    So we can imagine hundreds of those happening, U.S. to 
Cambodia, U.S. to Korea, U.S. to Vietnam, U.S. to Mexico. And 
building those bilateral relationships after the case is found, 
so both countries are working the case together, I think is 
something that the field needs to be doing a lot more of in 
future years.
    In the first 10 years in the field, they haven't been doing 
that as much because we have been getting the infrastructures 
in place. Now that the infrastructure is in place, we can begin 
to partner them country by country in exactly the way you are 
describing.
    Mr. Chabot. Thank you, Madam Chair. My time has expired.
    Ms. Ros-Lehtinen. Thank you very much.
    Mr. Lowenthal?
    Mr. Lowenthal. Thank you, Madam Chair. I have a question 
for Supervisor Knabe. First, I would like to commend you and 
Los Angeles County for your great work in both educating us, 
but really providing kind of a model for the rest of the 
counties and for the Nation in terms of what, at the local 
level, we can do.
    I followed your presentation earlier; I had to leave, but 
in terms of raising awareness, of involving the private sector, 
in terms of bringing in Federal grants and beginning to build 
relationships with school districts, and working with victims.
    So my question is--and I see how this is a process that is 
taking years, that counties are not just going to jump in and 
solve this. This takes a lot of work and a lot of coordination. 
I am just kind of interested in if you can share with us how 
that work with schools is doing.
    Since this is--you know, we are talking about children's 
mental health right now, and I am wearing a ribbon for 
Children's Mental Health Awareness Month, if you could tell us, 
with your experiences, how--and as you began with people who 
are subjected to prostitution at ages 10 or 11, what kind of 
recovery is going on? How does mental health work?
    I just think that is such an important task, but I would 
like to understand more how effective it is being.
    Mr. Knabe. Well, it is effective. I think it is on two 
fronts, Congressman Lowenthal. I mean, one is going back to the 
collaborative court where we are bringing the wrap-around 
services.
    Mr. Lowenthal. Right.
    Mr. Knabe. You can't operate in silence anymore. The mental 
health piece is an absolutely critical piece to all of this. 
You always have to remember that the victim is usually a 
runaway or a subject of domestic violence, so they really have 
no self-esteem----
    Mr. Lowenthal. That is right.
    Mr. Knabe [continuing]. The most significant part of the 
mental health issue. Then, the housing, as I said, is the 
biggest thing that is missing to be able to protect them, 
because they may have a tattoo on their forehead or on their 
shoulder to identify their pimp. So these wrap-around services, 
you know, dealing with the victim.
    As it relates to the other part, there has to be a public 
conversation, you know, our school districts, getting the word 
out through them about trafficking issues. Again, it is a very 
uncomfortable subject, but I would venture, you know, that 
there are kids out there that can identify other kids that may 
be in that potential situation. There has got to be a level of 
comfort.
    So we can only do so much, but we try to do it through the 
mental health programs, through outreach campaigns, and through 
the school districts. We are having some limited success, but, 
again, school districts aren't really comfortable about talking 
about it either, and that is what we have to be able to raise 
the level of attention, so that it is a comfortable subject.
    Mr. Lowenthal. Thank you.
    Mr. MacDonald. Can I just add one quick thing to that in 
terms of services? As many of these victims are further 
entrapped through drug addiction, where the pimps and other 
traffickers are getting them addicted to drugs as a way to 
further control them, and so services around addiction is a 
really important component.
    Mr. Knabe. We do have that. The health services and public 
health folks are also part of this collaborative courtroom.
    Mr. Lowenthal. I think it is important that we talk about 
those kinds of issues also here.
    Mr. Myles. The point that I would just jump in briefly, 
there are some really exciting efforts happening around the 
country related to schools. Georgia has been training its 
schools, kids in schools.
    There are a number of nonprofits that are particularly 
focused on reaching out to high school age kids. One program 
here in DC is called Fair Girls. They are trying to educate 
kids in the DC public schools. They are also doing it in 
Baltimore. There is a group called Love146 that is educating 
schools in Connecticut, a group called the A21 Campaign in 
Georgia, the Frederick Douglas Family Foundation is educating 
kids through New York City public schools.
    It is beginning to happen a bit more, and it is happening 
in a spotty fashion around the country. But we need to get to a 
point, maybe 2 or 3 years from now, where this is getting 
introduced as a topic in all high school age public schools. It 
is talked about like bullying, and it is not the difficult 
subject that people are having a hard time talking about.
    People need to recognize that pimps are targeting 
vulnerable kids, and so it is an important outreach strategy to 
make sure that kids can prepare themselves and talk about in 
schools. So I think that these initial efforts that we have 
seen around the country, including in California, are going to 
spread. And what your instinct is is how do we talk about this 
more in schools? We are going to see that spread and become 
more of a national standard. So we are getting there, but we 
are in the early nascent stages of what you are describing.
    Mr. Knabe. Congressman Lowenthal, I would just say, you 
know, we have that preventive curriculum that we use in our 
probation halls called My Life My Choice. We are trying to 
elevate and move that to middle schools where these 
exploitation efforts could be the highest as possible 
trafficking kinds of issues.
    So we do have this program, My Life My Choice, that we are 
using in probation. We are trying to take it to the middle 
schools as well. But, again, we need the cooperation of the 
school districts.
    Mr. Lowenthal. Thank you. I think sharing that information 
with us is vitally important, and I yield back my time.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Lowenthal.
    And Mr. Connolly of Virginia is recognized.
    Mr. Connolly. Thank you, Madam Chairman. Last, but maybe 
not least.
    Ms. Ros-Lehtinen. The best for last.
    Mr. Connolly. Thank you so much. More chocolate for you.
    Mr. Knabe, first of all, I just want to thank you. I spent 
14 years on the Board of Supervisors in Fairfax County, and I 
always like saluting my fellow local government servants 
because it is where the action is. And, God knoweth, you guys 
get so much more done than some other levels of government.
    I am particularly glad that you are so committed to this. 
You know, I say to all three of our panelists, we had a series 
of hearings on human trafficking in the Oversight and 
Government Reform Committee in the last Congress from which we 
passed a bill, actually, as part of the Defense Authorization 
Bill.
    Dr. MacDonald, you referred to the Executive Order, but our 
bill actually codifies that and does a few other things. I want 
to get into that in a second.
    But it is so important that at the local level we have 
leaders like Supervisor Knabe and others, and I hope the 
National Association of County Supervisors is very seized with 
this mission because that is a nationwide network that can make 
a difference because we know that human trafficking doesn't 
just occur in big urban areas such as Los Angeles.
    It can occur even more successfully, unfortunately, in 
rather remote areas in the country where it is not detected, 
where the police forces are much weaker, the ability to gather 
intelligence and the like. So your commitment and building a 
network up to fight it from the local level I just think is so 
critical.
    Dr. MacDonald, are you familiar with the legislation that 
got passed? Because what we highlighted was, frankly, U.S. 
Government contractors and subcontractors, especially at DoD 
and the Department of State, and we were shocked at the 
testimony. I mean, shocked. It was rampant.
    This is compromising human autonomy, and there can be 
nothing more antithetical to American values than that. What we 
found, frankly, was the practice was turning a blind eye 
because we have got to get, you know, that building constructed 
or that facility put up. If some foreign subcontractor feels 
that is what they need, that is what they need.
    Your comment on that?
    Mr. MacDonald. Yes. I am quite familiar with it. I am glad 
that you all took that effort to really make it happen. What is 
really important now is that in the Federal regulatory writing 
process, with the Executive Order and also in relation to your 
legislation, that clear guidance for these contractors or 
subcontractors is creating, and that there is real enforcement 
from within the Federal bureaucracy, those who are in charge of 
contracts, because, as you know, clear policy is in place there 
around no fees, no contract substitution, all sorts of issues 
about repatriation of workers, and so on.
    So the things are spelled out there about what they need to 
have in their due diligence plan. But whether or not the 
Federal bureaucracy is going to take the step, have the 
resources, train its contracting officials to actually identify 
what is an acceptable plan in place for Federal contractors, 
and whether there are systems in place for those Federal 
contractors to use things like the ethical framework that I 
mentioned that we created to provide a blueprint for labor 
recruiters to show that they followed these rules, that is 
where the rubber hits the road, will there be true enforcement 
of that? Because people are really identifying the steps that 
need to be taken.
    There are good recruiters, there are too many bad 
recruiters, and there has to be a way to recognize the good 
from the bad and make sure that there is accountability within 
these Federal contracts for that, because if it is happening on 
our U.S. military bases and with our Embassies and others, you 
can imagine what is happening in the private sector, the world 
over.
    Mr. Connolly. Exactly.
    Mr. MacDonald. Routine practice.
    Mr. Connolly. Let me just say, at least starting with our 
contractors, our view was in our legislation there will be zero 
tolerance, and you will not turn a blind eye. And if these are 
subcontractors working for you, you will enforce these 
standards, and you will debar.
    When we asked how many were prosecuted, we heard testimony 
about thousands and thousands and thousands of human beings who 
had had their autonomy ripped from them. And when we said, 
``Well, how many have been prosecuted? How many contractors or 
subcontractors have been prosecuted?'' It was a handful. How 
many have been debarred? And I believe I am correct; it was 
zero. Unacceptable.
    So we clearly need groups such as yours and yours, Mr. 
Myles, to be being the watchdogs to make sure that that 
enforcement is real, and that there is transparency because 
there are lots of us here who are more than willing to partner 
with you to make sure that--we first start by holding ourselves 
accountable.
    Mr. Knabe. Congressman, if I could just interject, you 
know, it is amazing at the transportation level on 
transportation projects across this country that there are all 
of these debarment kinds of situations in place. And they are 
prosecuted, you know, and to deal with an issue like human 
trafficking----
    Mr. Connolly. Exactly.
    Mr. Knabe [continuing]. They should absolutely have the 
same things in place. If you look at the template of most of 
the transportation legislation that comes out of the Federal 
Government, and the structure that is set up for debarment, it 
could just transfer over as it relates to human trafficking and 
the whole supply chain.
    Mr. Myles. And the only point I would make briefly is just 
to all of those contractors, as these regulations come out, 
make sure that the workers are given hotlines and complaint 
mechanisms to call. And so imagine the workers working for some 
of those defense contractors. Did they know a hotline to call 
when they were in that situation? Probably not. Or the workers 
that are working on some other contract or subcontract, do they 
know a hotline to call? Probably not.
    What you can do through the regulatory process is mandate 
certain complaint mechanisms that those companies, if you 
contract with the Federal Government, part of the requirement 
of contracting with the Federal Government is you need to tell 
your workers about a complaint mechanism, and here is a hotline 
to call. When those workers know those hotlines to call, they 
will call in a whistleblower-type fashion. So that is one 
component of this, just to make sure the worker's voice is 
heard, too.
    Mr. Connolly. Mr. Chairman, my time is up. I do want to be 
very clear, however, when we are talking about the contractors 
and subcontractors, we are talking about some bad apples. The 
overwhelming majority, obviously, of contractors and 
subcontractors would never turn a blind eye to this kind of a 
phenomenon.
    But, unfortunately, the further away we get from our own 
shores in contracting for remote facilities, you have to rely 
on sometimes other companies that may not be as committed 
passionately to this, and that is where our enforcement 
mechanisms really come into play.
    I thank the chair.
    Chairman Royce. Thank you, Mr. Connolly.
    We, again, say to Mr. MacDonald, Mr. Myles, Supervisor Don 
Knabe, thank you very much for your testimony here today.
    You know, today the eyes of our country are riveted by the 
welcome rescue of three young women abducted and detained for 
over a decade in a Cleveland home. As we rejoice at their 
rescue, this hearing today, this testimony today, underscores 
the sad reality that millions of other girls around this world 
and, indeed, right here in our own communities and our own 
counties, many are being robbed of their youth as silent 
victims of forced sexual exploitation.
    You have all highlighted important local and private anti-
trafficking initiatives that we can help get behind. But I 
think our pledge on this committee is that we will remain 
diligent in keeping the State Department honest in pressing 
foreign nations to join us in fighting this modern-day slavery.
    I thank you, again, and we stand adjourned.
    [Whereupon, at 12:19 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
